<html>
<title> - ARE WE PREPARED? ASSESSING EARTHQUAKE RISK REDUCTION IN THE UNITED STATES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 
                            ARE WE PREPARED?
        ASSESSING EARTHQUAKE RISK REDUCTION IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2011

                               __________

                           Serial No. 112-13

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-491                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                  HON. BENJAMIN QUAYLE, Arizona, Chair
LAMAR S. SMITH, Texas                DAVID WU, Oregon
JUDY BIGGERT, Illinois               JOHN P. SARBANES, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas             DANIEL LIPINSKI, Illinois
CHARLES J. ``CHUCK'' FLEISCHMANN,    GABRIELLE GIFFORDS, Arizona
    Tennessee                        BEN R. LUJAN, New Mexico
E. SCOTT RIGELL, Virginia                
RANDY HULTGREN, Illinois                 
CHIP CRAVAACK, Minnesota                 
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                        Thursday, April 7, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Benjamin Quayle, Chairman, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     6
    Written Statement............................................     6

Statement by Representative David Wu, Ranking Minority Member, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

                               Witnesses:

Dr. Jack Hayes, Director, National Earthquake Hazards Reduction 
  Program (NEHRP) at the National Institute of Standards and 
  Technology (NIST)
    Oral Statement...............................................    10
    Written Statement............................................    11
    Biography....................................................    21

Mr. Jim Mullen, Director, Washington State Emergency Management 
  Division and the President of the National Emergency Management 
  Association (NEMA)
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    27

Mr. Chris Poland, Chairman and Chief Executive Officer, Degenkolb 
  Engineers and Chairman of the NEHRP Advisory Committee
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    34

Dr. Vicki McConnell, Oregon State Geologist and the Director of 
  the Oregon Department of Geology and Mineral Industries
    Oral Statement...............................................    36
    Written Statement............................................    37
    Biography....................................................    42

             Appendix I: Answers to Post-Hearing Questions

Dr. Jack Hayes, Director, National Earthquake Hazards Reduction 
  Program (NEHRP) at the National Institute of Standards and 
  Technology (NIST)..............................................    56

Mr. Jim Mullen, Director, Washington State Emergency Management 
  Division and the President of the National Emergency Management 
  Association (NEMA).............................................    71

Mr. Chris Poland, Chairman and Chief Executive Officer, Degenkolb 
  Engineers and Chairman of the NEHRP Advisory Committee.........    73

Dr. Vicki McConnell, Oregon State Geologist and the Director of 
  the Oregon Department of Geology and Mineral Industries........    74

            Appendix II: Additional Material for the Record

Submitted Statement by Representative Randy Neugebauer, Member, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    78


                            ARE WE PREPARED?
                  ASSESSING EARTHQUAKE RISK REDUCTION
                          IN THE UNITED STATES

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                  House of Representatives,
         Subcommittee on Technology and Innovation,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Benjamin 
Quayle [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                     U.S. HOUSE OF REPRESENTATIVES

                            Are We Prepared?

                 Assessing Earthquake Risk Reduction in

                           the United States

                        thursday, april 7, 2011
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, April 7, 2011 the Subcommittee on Technology and 
Innovation of the Committee on Science, Space, and Technology will hold 
a hearing to examine earthquake risk in the United States and to review 
efforts supporting the development of earthquake hazard reduction 
measures, and the creation of disaster-resilient communities.

Witnesses

Dr. Jack Hayes is the Director of the National Earthquake Hazards 
Reduction Program (NEHRP) at the National Institute of Standards and 
Technology (NIST).

Mr. Jim Mullen is the Director of the Washington State Emergency 
Management Division and the President of the National Emergency 
Management Association (NEMA).

Mr. Chris Poland is the Chairman and Chief Executive Officer of 
Degenkolb Engineers and the Chairman of the NEHRP Advisory Committee.

Dr. Vicki McConnell is an Oregon State Geologist and the Director of 
the Oregon Department of Geology and Mineral Industries.

Brief Overview

    The hearing will examine various elements of the Nation's level of 
earthquake preparedness and resiliency including the U.S. capability to 
detect earthquakes and issue notifications and warnings, coordination 
between federal, state and local stakeholders for earthquake emergency 
preparation, and research and development measures supported by the 
federal government designed to improve the scientific understanding of 
earthquakes.

Background

Earthquake Risk and Hazard in the United States
    Portions of all 50 states are vulnerable to earthquake hazards, 
although risks vary across the country and within individual states. 
Twenty-six urban areas in fourteen U.S. states face significant seismic 
risk. Earthquake hazards are greatest in the western United States, 
particularly in California, Oregon, Washington, Alaska, and Hawaii. 
Though infrequent, earthquakes are unique among natural hazards in that 
they strike without warning. Earthquakes proceed as cascades, in which 
the primary effects of faulting and ground shaking induce secondary 
effects such as landslides, liquefaction, and tsunami, which in turn 
set off destructive processes within the built environment; structures 
collapse, people are injured or killed, infrastructure is disrupted, 
and business interruption begins. The socioeconomic effects of large 
earthquakes can reverberate for decades.
    The recent earthquake that struck off the coast of northern Japan 
on March 11, 2011, illustrates that the effects of an earthquake can be 
catastrophic. The earthquake, recorded as a 9.0 on the Richter scale, 
is the most powerful quake to hit the country, and it triggered a 
devastating tsunami that swept over cities and farmland in the northern 
part of the country. As Japan struggles with rescue efforts, it also 
faces a nuclear emergency due to damage to the nuclear reactors at the 
Fukushima Daiichi Nuclear Power Station. As of March 31, the official 
death toll from the earthquake and resulting tsunami includes more than 
11,600, and more than 16,000 people were listed as missing. The final 
toll is expected to reach nearly 20,000. More than 190,000 people 
remained housed in temporary shelters; tens of thousands of others 
evacuated their homes due to the nuclear crisis and related fear.

The National Earthquake Hazards Reduction Program (NEHRP)
    In 1977 Congress passed the Earthquake Hazards Reduction Act (P.L. 
95-124) establishing NEHRP as a long-term earthquake risk reduction 
program for the United States. The original program focused on research 
to understand and predict earthquakes. NEHRP's focus was changed in 
1990, when Congress decreased the emphasis on earthquake prediction, 
expanded the program objectives, and required federal agencies to adopt 
seismic safety standards.
    Currently under NEHRP, four federal agencies have responsibility 
for long-term earthquake risk reduction: NIST, FEMA, the NSF, and the 
USGS. Current program activities are focused on four broad areas 
including supporting the development of effective earthquake hazard 
reduction measures, promoting the adoption of these measures by 
federal, state, and local governments, improving the basic 
understanding of earthquakes and their effects on people and 
infrastructure, and developing and maintaining the Advanced National 
Seismic System (ANSS), the George E. Brown Jr. Network for Earthquake 
Engineering and Simulation (NEES), and the Global Seismic Network 
(GSN).
    Primary responsibilities for the NEHRP agencies break down as 
follows:

        <bullet>  NIST is the lead NEHRP agency and has responsibility 
        for the planning and coordination of the program. NIST also 
        promotes earthquake resistant design and construction practices 
        through building codes, standards, and construction practices.

        <bullet>  FEMA assists other agencies and private-sector groups 
        to prepare and develop earthquake risk modeling tools, and aids 
        the development of performance-based codes for buildings and 
        other structures.

        <bullet>  NSF supports basic research to improve the safety and 
        performance of buildings and structures using the research 
        facilities of NEES and other institutions engaged in earth 
        sciences, engineering, and social sciences relevant to 
        understanding the causes and impacts of earthquakes.

        <bullet>  USGS conducts research to assess earthquake causes 
        and effects, produces national and regional seismic hazards 
        maps, monitors and rapidly reports on earthquakes and their 
        shaking intensities in the U.S. and abroad. The USGS maintains 
        the ANSS and the GSN.

    The table below shows the authorized and enacted levels of funding 
for NERHP over the last reauthorization period.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

110th and 111th Congressional Hearings

    The House Committee on Science, Space, and Technology held one 
hearing in the 111th Congress entitled ``Reauthorization of the 
National Earthquake Hazards Reduction Program'' to review NEHRP in 
preparation for reauthorization. The Subcommittee also held two 
hearings related to this legislation during the 110th Congress.

Reauthorization

    The last year to provide an authorization for NEHRP was fiscal year 
2009. The House passed reauthorization legislation (H.R. 3820) in the 
last Congress, but it was not considered by the Senate.

Issues for Examination

Coordination of Federal Preparedness Efforts
    The Subcommittee has requested that witnesses address the 
coordination between federal, state, and local stakeholders, and their 
roles in earthquake preparedness efforts. Witnesses will also discuss 
how well NEHRP is functioning, opportunities to improve coordination 
among the NEHRP agencies, and the priorities for NEHRP moving forward.

Hazard Mitigation Costs and Benefits
    Much of the expense resulting from damage caused by earthquakes is 
borne by the federal government. Witnesses are asked to discuss the 
costs and benefits of hazard mitigation spending, specifically, whether 
the cost of government investments in natural hazard mitigation with 
the objective of reducing or eliminating losses from future natural 
disasters results in a measurable benefit.

The State of Hazards Reduction Science
    In the Strategic Plan for the National Earthquake Hazards Reduction 
Program Fiscal Years 2009-2013 \1\, the NEHRP agencies list nine 
strategic priorities to accomplish the goals of understanding 
earthquakes and their impacts, developing cost-effective measures to 
reduce these impacts, and improve earthquake resiliency nationwide. The 
Subcommittee has asked witnesses to address how these goals are bring 
accomplished, challenges faced by the NEHRP agencies, and how research 
priorities align with the strategic plan goals. Also, in a recent 
National Research Council report \2\, eighteen preparedness tasks were 
identified, ranging from basic research to community-oriented 
applications. Witnesses have been asked to discuss how this ``roadmap'' 
helps to further NEHRP goals and implement the NEHRP Strategic Plan to 
provide the basis for a more earthquake resilient nation.
---------------------------------------------------------------------------
    \1\ National Earthquake Hazards Reduction Program, Strategic Plan 
for the National Earthquake Hazards Reduction Program Fiscal Years 
2009-2013, October 2008, http://www.nehrp.gov/pdf/strategic--plan--
2008.pdf.
    \2\ National Research Council of the National Academies, National 
Earthquake Resilience: Research, Implementation, and Outreach, March 
2011, http://www.nap.edu/catalog.php?record--id=13092.

Response and Recovery Planning
    The Subcommittee has requested that witnesses address research and 
development for hazard mitigation tools and products. These activities 
must meet the needs of state and local officials who must prepare their 
communities for disasters and help them respond. How well do NEHRP 
activities meet state and local needs, how could efforts be better 
aligned, and what are the lessons that can be drawn from the resilience 
demonstrated in responding to a moderate earthquake in preparing for a 
great one?
    Chairman Quayle. The Subcommittee on Technology and 
Innovation will come to order.
    Good morning. Welcome to today's hearing entitled ``Are We 
Prepared? Assessing Earthquake Risk Reduction in the United 
States.'' In front of you are packets containing the written 
testimony, biographies and truth in testimony disclosures for 
today's witnesses. I now recognize myself for five minutes for 
an opening statement. I would like to welcome all the witnesses 
here today for this hearing.
    In light of the devastating effects of the recent 
earthquake and subsequent tsunami that struck off the coast of 
northern Japan on March 11th, many countries are examining 
their own level of preparedness. The scale of the human tragedy 
is difficult to comprehend, and our thoughts and prayers are 
with the people of Japan. It is always a challenge to measure 
how prepared we are for the next unexpected event, and whether 
current efforts are adequate.
    Although earthquake risks vary across the country, portions 
of all 50 states are vulnerable to these hazards. Twenty-six 
urban areas in 14 different U.S. states face significant 
seismic risk. My own district in Arizona does not lie on top of 
a major subduction zone or fear the threat of tsunamis. But I 
believe today's topic is important for all of us. Earthquake 
catastrophes have the potential not only to destroy lives and 
buildings, but also to wreak havoc on civil and industrial 
infrastructure and the national economy.
    In Japan, the aftereffects of the earthquake have reduced 
supplies of water and electricity, hampering Japan's ability to 
export many manufacturing products and forcing some businesses 
to slow or stop operation all together. Supply chains for 
important technology products here in the United States have 
also been interrupted, directly impacting our productivity.
    The impacts and consequences of a major earthquake are felt 
on a global scale. These hazards consequently represent a 
serious threat to both national security and global commerce. 
Given our current economic situation, it would be even more 
painful for the United States to endure a disastrous 
earthquake, the socioeconomic effects of which would 
reverberate for decades.
    This Committee has supported ongoing work amongst four 
federal agencies focused on researching and developing 
techniques to minimize the devastation of earthquakes. This 
includes improving forecasting, supporting the development of 
effective hazard reduction measures, engineering disaster-
resilient buildings, and furthering our basic understanding of 
earthquakes and their effects on people and infrastructure. 
Coordination of these elements is important in order to 
effectively deal with these hazards, and communication between 
federal, state and local stakeholders is critical.
    Much of the federal research and development effort is 
housed in the National Earthquake Hazard Reduction Program, 
also known as NEHRP. This program coordinates the earthquake 
hazards reduction efforts of the National Institute of 
Standards and Technology, the National Science Foundation, the 
United States Geological Survey and the Federal Emergency 
Management Agency. Coordination of these agencies' work 
provides the public and private sectors with the necessary 
scientific and engineering information to prepare for 
earthquakes, and hopefully reduce their impact. NEHRP was last 
authorized in 2009, and while the House passed reauthorization 
legislation in the last Congress with bipartisan support, it 
was not considered by the Senate.
    We have an excellent panel of witnesses today, who will 
examine earthquake risk in the United States and review efforts 
supporting the development of earthquake hazard reduction 
measures. We will hear perspectives from the director of a 
federal program created to reduce earthquake hazards, a state 
geologist, an emergency management professional, and a 
structural engineer and member of a national advisory committee 
overseeing earthquake engineering programs. I would like to 
extend my appreciation to each of our witnesses for taking the 
time and effort to appear before us today.
    Thanks again to our witnesses for their participation. I 
look forward to a productive discussion.
    [The prepared statement of Mr. Quayle follows:]

               Prepared Statement of Chairman Ben Quayle

    Good morning. I'd like to welcome everyone to today's hearing.
    In light of the devastating effects of the recent earthquake and 
subsequent tsunami that struck off the coast of northern Japan on March 
11, many countries are examining their own level of preparedness. The 
scale of the human tragedy is difficult to comprehend and our thoughts 
and prayers are with the people of Japan. It is always a challenge to 
measure how prepared we are for the next unexpected event, and whether 
our current efforts are adequate.
    Although earthquake risks vary across the country, portions of all 
50 states are vulnerable to these hazards. Twenty-six urban areas in 
fourteen different U.S. states face significant seismic risk. My own 
district in northern Arizona, does not lie on top of a major subduction 
zone or fear the threat of tsunamis. But I believe today's topic is 
important for all of us--earthquake catastrophes have the potential not 
only to destroy lives and buildings, but also to wreak havoc on civil 
and industrial infrastructure and the national economy.
    In Japan, the after effects of the quakes have reduced supplies of 
water and electricity, hampering their ability to export many 
manufacturing products and forcing some businesses to slow or stop 
operation all together. Supply chains for important technology products 
here in the States have also been interrupted, directly impacting our 
productivity.
    Clearly the consequences of a major earthquake are felt on a global 
scale. These hazards represent a serious threat to both national 
security and global commerce. Given our current economic situation, it 
would be even more painful for the United States to endure a disastrous 
earthquake, the socioeconomic effects of which would reverberate for 
decades.
    This Committee has supported ongoing work amongst four federal 
agencies focused on researching and developing techniques to minimize 
the devastation of earthquakes. This includes improving forecasting, 
supporting the development of effective hazard reduction measures, 
engineering disaster-resilient buildings, and furthering our basic 
understanding of earthquakes and their effects on people and 
infrastructure. Coordination of these elements is important to deal 
with hazards, and effective communication between federal, state and 
local stakeholders is critical.
    Much of the federal research and development effort is housed 
within the National Earthquake Hazard Reduction Program, also known as 
NEHRP ["KNEE-HURP"]. This program manages the earthquake hazards 
reduction efforts of the National Institute of Standards and Technology 
(NIST), the National Science Foundation (NSF), the United States 
Geological Survey (USGS) and the Federal Emergency Management Agency 
(FEMA). These agencies have distinct but highly complementary missions. 
Coordination of these agencies' work provides the public and private 
sectors with the necessary scientific and engineering information to 
prepare for earthquakes, and hopefully reduce their impact. NEHRP was 
last authorized in 2009. While the House passed reauthorization 
legislation in the last Congress with bipartisan support, it was not 
considered by the Senate.
    We have an excellent panel of witnesses before us today, who will 
examine earthquake risk in the United States and review efforts 
supporting the development of earthquake hazard reduction measures. We 
will hear perspectives from the director of a federal program created 
to reduce earthquake hazards, a state geologist, an emergency 
management professional, and a structural engineer and member of a 
national advisory committee overseeing earthquake engineering programs. 
I'd like to extend my appreciation to each of our witnesses for taking 
the time and effort to appear before us today.
    Thanks again to our witnesses for their participation. I look 
forward to a productive discussion. With that, I now recognize the 
gentleman from Oregon, Mr. Wu, for his opening statement.

    Chairman Quayle. With that, I now recognize the Ranking 
Member of the Subcommittee, the gentleman from Oregon, Mr. Wu, 
for his opening statement.
    Mr. Wu. Thank you very much, Mr. Chairman, for calling this 
very important hearing to assess the state of earthquake risk 
reduction in the United States and our readiness, and thank you 
to our witnesses. Many of you have traveled a long distance to 
be here with us today, and I appreciate it very much as does 
the rest of the Committee.
    Our hearts go out to the Japanese people as they continue 
their work to recover and rebuild from last month's devastating 
earthquake and ensuing tsunami. The loss of life and property 
is a stark reminder of the destruction that can be caused by a 
large-scale earthquake, even in a country like Japan that is on 
the leading edge in earthquake preparation and mitigation, and 
this tragedy certainly forces us to take stock of our own 
vulnerabilities.
    As an Oregonian, I am particularly concerned with the 
prospect of a similar disaster occurring in the Pacific 
Northwest. Off the coast of Oregon, Washington and northern 
California, we have the Cascadia subduction zone, and this 
fault is currently locked in place, but research over the last 
30 years indicates that the same stress now accumulating has 
been released as a large earthquake once about every 300 years 
dating back to the last ice age about 12,000 years ago. The 
last Cascadia earthquake occurred 309 or 310 years ago. It was 
a magnitude 9.0 earthquake, the same destructive magnitude as 
the one that stuck Japan. All indications show that we 
Oregonians can expect another quake any time. It is a matter of 
when, not a matter of if.
    When the next earthquake occurs on our fault, there will be 
prolonged shaking, perhaps for as long as five minutes, with 
the potential to collapse buildings, create landslides, and 
destroy water, power, and other crucial infrastructure and 
lifelines. Such an earthquake will also likely trigger a 
devastating tsunami that could overwhelm the Oregon coast in 
less than 15 minutes, resulting in potentially thousands of 
fatalities and billions of dollars in damage.
    Unfortunately, this type of disaster scenario is not 
limited to the Western United States. In fact, more than 75 
million Americans across 39 states face significant risk from 
earthquakes.
    The good news is that we have already learned a lot about 
how to prepare for, mitigate, and respond to a large-scale 
earthquake. There is a lot of work already underway to help us 
better understand earthquakes, develop safer building 
construction standards, and ensure that affected communities 
can respond to and recover from earthquakes as quickly as 
possible.
    The National Earthquake Hazards Reduction Program, or 
NEHRP--lovely acronym--has driven us to make significant 
progress in this area. I expect that we will hear testimony 
today that the four NEHRP agencies, NIST, FEMA, NSF and USGS, 
are making significant strides with at-risk communities by 
developing new hazard maps, model building codes, and public 
outreach efforts. I have no doubt that the progress we have 
made through NEHRP has enhanced the safety of our communities 
and will save lives. NEHRP's good work must be continued.
    That is why I have reintroduced the Natural Hazards Risk 
Reduction Act, which will reauthorize the NEHRP program. This 
bipartisan legislation passed the House by an overwhelming 
margin in the last Congress, and already this year, my bill has 
been introduced in the Senate, where they are moving quickly to 
mark it up next week. I look forward to working with my 
colleagues on this Subcommittee and Full Committee, and in the 
Senate to get this bill signed into law as quickly as possible, 
so that we can continue addressing the large challenges that 
remain: retrofitting existing structures, improving the 
performance of critical infrastructure, and encouraging the 
adoption of mitigation measures by households, businesses, and 
communities. And I might add here that I am particularly 
interested in education measures, education that can reduce 
casualties from earthquakes but especially along the Oregon 
coast where appropriate education not only of the coastal 
population but of the populations in the valley, well, what we 
call the valley where a significant number of people vacation 
on the coast is particularly important so that people will head 
for high ground immediately after the ground stops moving so 
that they can have a good chance of avoiding the ensuing 
tsunami.
    We are here today to engage in a productive discussion 
about where we stand, particularly in relation to other 
countries that have suffered large-scale earthquakes, in terms 
of our preparedness and resiliency to earthquakes, and what 
more needs to be done.
    Thank you very much, Mr. Chairman, for holding this 
important hearing and I look forward to the witness testimony.
    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Ranking Member David Wu

    Thank you, Chairman Quayle, for calling this very important hearing 
to assess the state of earthquake risk reduction in the United States. 
And thank you to our witnesses for being here today. Many of you have 
traveled a great distance to be here, and I appreciate that.
    Our hearts go out to the Japanese people as they continue their 
work to recover and rebuild from last month's devastating earthquake 
and tsunami. The loss of life and property is a stark reminder of the 
destruction that can be caused by a large-scale earthquake, even in a 
country like Japan that is on the leading edge in earthquake 
preparation and mitigation. This tragedy forces us to take stock of our 
own vulnerabilities.
    As an Oregonian, I am particularly concerned with the prospect of a 
similar disaster occurring in the Pacific Northwest. Off the coast of 
Oregon, Washington, and Northern California lies the Cascadia 
Subduction Zone. This fault is currently locked in' place, but research 
shows that the same stress DOW accumulating has been released as a 
large earthquake once about every 500 years. The last Cascadia 
earthquake occurred 300 years ago. It was a magnitude 9.0, the same 
destructive magnitude that hit Japan last month. All indications show 
that we Oregonians can expect another one at any time.
    When the next earthquake occurs on our fault, there will be 
prolonged shaking with the potential to collapse buildings, create 
landslides, and destroy water, power, and other critical lifelines.Such 
an earthquake will also likely trigger a devastating tsunami that could 
overwhelm the Oregon coast in less than 15 minutes, resulting in 
thousands of fatalities and billions of dollars in damages.
    Unfortunately, this type of disaster scenario is not limited to the 
Western United States. In fact, more than 75 million Americans across 
39 states face significant risk from earthquakes.
    The good news is that we have already learned a lot about how to 
prepare for, mitigate, and respond to a large-scale earthquake. There 
is a lot of work already underway to help us better understand 
earthquakes, develop safer building construction standards, and ensure 
that impacted communities can respond to and recover from earthquakes 
as quickly as possible.
    The National Earthquake Hazards Reduction Program, or NEHRP, has 
driven us to make significant progress in this area. I expect that we 
will hear testimony today that the four NEHRP agencies--NIST, FEMA, 
NSF, and USGS--are making significant strides with at-risk communities 
by developing new hazard maps, model building codes, and public 
outreach efforts.
    I have no doubt that the progress we have made through NEHRP has 
enhanced the safety of our communities and will save lives. NEHRP's 
good work must be continued.
    That is why I have reintroduced the Natural Hazards Risk Reduction 
Act, which will reauthorize the NEHRP program. This bipartisan 
legislation passed the House by an overwhelming margin in the last 
Congress. Already this year, it has been introduced in the Senate, on 
the heels of the recent disaster in Japan.
    I look forward to working with my colleagues on this Committee and 
in the Senate to get this bill signed into law as quickly as possible, 
so that we can continue addressing the large challenges that remain: 
retrofitting existing structures, improving the performance of critical 
infrastructure, and encouraging the adoption of mitigation measures by 
households, businesses, and communities. We're here today to engage in 
a productive discussion about where this country stands--particularly 
in relation to other countries that have suffered large-scale 
earthquakes--in terms of our preparedness and resiliency to 
earthquakes, and what more needs to be done.
    Thank you again, Mr. Chairman, for holding this hearing. And thank 
you again to the witnesses for being here. I look forward to your 
testimony.

    Chairman Quayle. Thank you, Mr. Wu.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses and 
then we will proceed to hear from each of them in order. Our 
first witness is Dr. Jack Hayes, Director of the National 
Earthquake Hazards Reduction Program at the National Institute 
of Standards and Technology. Next we will hear from Mr. Jim 
Mullen, President of the National Emergency Management 
Association and Director of the Washington State Emergency 
Management Division. Our third witness is Mr. Chris Poland, the 
Chairman and Chief Executive Officer of Degenkolb Engineers and 
Chairman of the NEHRP Advisory Committee. Our final witness is 
Dr. Vicki McConnell, Oregon State Geologist and Director of the 
Oregon Department of Geology and Mineral Industries.
    Thanks again to our witnesses for being here this morning. 
As our witnesses should know, spoken testimony is limited to 
five minutes each. After all witnesses have spoken, Members of 
the Committee will have five minutes each to ask questions.
    I now recognize our first witness, Dr. Jack Hayes, 
Director, National Earthquake Hazards Reduction Program, 
National Institute of Standards and Technology.

  STATEMENT OF DR. JACK HAYES, DIRECTOR, NATIONAL EARTHQUAKE 
                HAZARDS REDUCTION PROGRAM, NIST

    Dr. Hayes. Chairman Quayle, Ranking Member Wu and Members 
of the Subcommittee, thank you for inviting me today to testify 
on the state of earthquake risk reduction in the United States. 
My testimony reviews the impact of the NEHRP partnership that 
includes FEMA, NIST, which is my home agency, NSF and USGS. 
This partnership also includes other federal agencies, state 
and local governments, non-governmental professional 
organizations, model building code and standards organizations, 
and earthquake professionals in the private sector and 
academia.
    NEHRP fosters unique cooperation among the four agencies 
with each agency having a crucial role that complements but 
does not overlap or compete with the roles of the other NEHRP 
agencies. Briefly, NSF supports relevant basic research in the 
earth and social sciences and the relevant engineering 
disciplines. The USGS carries out earthquake hazards 
assessments, earthquake monitoring and notification, and 
targeted research in those areas. NIST serves as the program 
lead agency and develops and tests earthquake-resistant design 
and construction practices. And finally, FEMA promotes the 
implementation of earthquake safety tools and policies focusing 
on the development of earthquake-resistant building codes and 
practices.
    NEHRP has an Interagency Coordinating Committee consisting 
of the leaders of each NEHRP agency and the directors of OMB 
and OSTP. This committee, the ICC, provides overall program 
direction. NEHRP also has an external advisory committee that 
provides independent assessment of our work and recommends 
warranted program changes back to the ICC. The current chair of 
the advisory committee, Mr. Chris Poland, is also a witness at 
this hearing. We have developed a strategic plan that guides 
our partnership. As stated in that plan, our vision is to 
create a Nation that is earthquake-resilient in public safety, 
economic strength and national security.
    How are we achieving this vision? Significantly, NEHRP is 
not a regulatory body. We develop, disseminate and promote 
knowledge, tools and practices for earthquake risk reduction, 
working through coordinated multidisciplinary interagency 
partnership both internal to NEHRP and with our stakeholders. 
We emphasize resilience, or the ability for a community, region 
or even the Nation to recover in a timely manner from the 
occurrence of an earthquake or other hazard, recognizing that 
this is key to long-term sustainability. Attaining resilience 
requires coordinated application of planning, mitigation, 
redundancy, robustness, and response and recovery activities.
    Our NEHRP annual reports, website and other publications 
cover our activities. While I summarize some recent program 
highlights in my written testimony, time does not allow me to 
review them in detail with you now. Of course, I will certainly 
respond to any specific questions you may have later.
    During the last 14 months, we have seen devastating 
earthquakes in Haiti, Chile, New Zealand and Japan. We offer 
our sympathy to these nations and their citizens who have been 
affected by these events. Despite their tragic consequences, 
these events teach us numerous lessons that can be applied at 
home. There are many technical and scientific aspects of these 
earthquakes that we are investigating, but two overarching 
lessons are already clear. First, these devastating earthquakes 
strike without warning, and often at locations where their full 
impacts are not expected or understood. Second, earthquake 
preparedness and resilience measures can greatly reduce 
earthquake impacts, human suffering, and societal and economic 
disruption. The purpose of NEHRP is to ensure that we are 
prepared and that we do not have to relearn those two lessons 
here at home.
    Chairman Quayle and other Subcommittee Members, thank you 
again for the opportunity to testify on NEHRP efforts to reduce 
earthquake risk in the United States. This concludes my 
remarks, and I shall be happy to answer any questions that you 
may have.
    [The prepared statement of Mr. Hayes follows:]

  Prepared Statement of Dr. Jack Hayes Director, National Earthquake 
                    Hazards Reduction Program, NIST

Introduction

    Chairman Quayle, Ranking Member Wu and Members of the Subcommittee, 
on behalf of Secretary of Commerce Gary Locke and the Department of 
Commerce, thank you for inviting me to testify on the current 
activities of the National Earthquake Hazards Reduction Program (NEHRP) 
today. Before I start, I wanted to share with you that all of us at the 
Department share in the grief felt by people around the world for the 
people of Japan. On behalf of the Department of Commerce, Secretary 
Locke expressed his condolences at the Embassy of Japan on March 23rd.
    My testimony provides an overview of the statutory four-agency 
NEHRP partnership that includes the Federal Emergency Management Agency 
(FEMA), the National Institute of Standards and Technology (NIST)--my 
home agency, the National Science Foundation (NSF), and the U.S. 
Geological Survey (USGS). This partnership also extends far beyond 
these Federal agencies to include other Federal agencies, state and 
local governments, non-governmental professional organizations, model 
building code and standards organizations, and earthquake professionals 
in the private sector and academia. Without this extended ``family'' of 
dedicated earthquake professionals, the NEHRP agencies simply could not 
fulfill their statutory responsibilities effectively.
    In the almost-two years since I last testified before this 
Subcommittee, the U.S. has fortunately continued to experience a 
relatively quiet period of seismic activity. However, worldwide seismic 
events during that time, particularly those around the Pacific ``Ring 
of Fire'' that borders the West Coast of the U.S., have been 
devastating, taking many lives, disrupting many other lives, and 
costing billions in direct and indirect impacts on infrastructure and 
economic activity. Since the beginning of 2010, we have witnessed 
horrific losses of life in Haiti (over 230,000) and Japan (toll still 
unknown but numbering in the tens of thousands) due to the combined 
earthquake and tsunami impacts, and lesser, but nevertheless 
significant, losses of life in Chile and New Zealand. The toll in terms 
of human life is overwhelming, and we all offer our heartfelt sympathy 
to those nations and their citizens.
    The NEHRP agencies have begun analyzing lessons-learned from all of 
these tragic events. Some preliminary ``big picture'' lessons are 
already clear. The 2010 Haiti and Chile earthquakes provided a stark 
contrast in the effectiveness of modern building codes and sound 
construction practices. In Haiti, where such standards were minimal or 
non-existent, many thousands were killed in the collapses of homes and 
other buildings. In Chile, with much more modern building codes and 
engineering practices, the loss of life, while still tragic, was far 
smaller, about 500, despite the fact that the Chile earthquake had a 
significantly higher magnitude of 8.8 (M8.8) than the Haiti earthquake 
(M7.0). The fault rupture that caused the Chile earthquake released 
approximately 500 times the energy released in the Haiti earthquake. 
The Chilean building code provisions had been based in large part on 
U.S. model building codes that have been developed by researchers and 
practitioners who have been associated with and supported by NEHRP.
    Scientists and engineers have not yet had enough time since the 
2011 earthquakes in New Zealand (M6.3) and Japan (M9.0) to draw 
detailed conclusions. We do know that Japan and New Zealand are 
international leaders in seismology and earthquake engineering--we in 
the U.S. partner with our counterparts in both countries, because we 
have much to learn from one another. Despite their technical prowess, 
leaders in both countries have been taken aback by the amount of damage 
that has occurred. One lesson we take from this before we even begin 
detailed studies is that we still have much to learn about the 
earthquake hazards we face and the engineering measures needed to 
minimize the risks from those hazards. Assuming that we already know 
everything we need to know is the surest strategy for catastrophe. The 
other broad lesson that has already become clear from both of these 
events is that local, and indeed national, resilience --to recover in a 
timely manner from the occurrence of an earthquake or other hazard 
event--is vital, going far beyond the essential, but narrowly focused, 
issue of ensuring life safety in buildings and other locations when an 
earthquake occurs. In Christchurch, NZ, the central business district 
has been largely closed since the February 21 earthquake, severely 
impacting the local economy. Some reports indicate as many as 50,000 
people are out of work as a result of this closure. In Japan, the 
impact of the March 11 earthquake and resulting tsunami have been far 
worse on the national economy, with energy, agriculture, and commercial 
disruptions of monumental proportions. Some estimates already put the 
economic losses over $300 billion, and economic disruption is certain 
to continue for years and extend far beyond Japan's shores.
    The 2010 and 2011 events followed decades or even centuries of 
quiescence on the faults where they struck and are sobering reminders 
of the unexpected tragedies that can occur. The USGS has recently 
issued updated assessments of earthquake hazards in the U.S. that 
provide appropriate perspectives for us. For example, in 2008, the 
USGS, the Southern California Earthquake Center (SCEC), and the 
California Geological Survey (CGS), with support from the California 
Earthquake Authority (CEA), jointly forecast a greater than 99% 
certainty of California's experiencing a M6.7 or greater earthquake 
within the next 30 years. The recent New Zealand earthquake, at M6.3, 
is slightly less severe than that which is postulated for California. 
The recent Chile and Japan earthquakes, at M8.8-M9.0, occurred in 
tectonic plate collision zones where one plate overrides another; that 
characteristic is closely comparable to those which generated 1964 
Alaska earthquake and more ancient earthquakes off the coasts of Oregon 
and Washington, in the Cascadia Subduction Zone. Seismologists thus 
believe that what we have recently observed in Chile and Japan should 
serve as clear indication to us for what may likely occur again someday 
off the Alaska, Oregon, and Washington coasts.
    While concern for future earthquake activity is always great along 
our West Coast, the National Research Council has noted in its 
publications that 39 states in the U.S. have some degree of earthquake 
risk, with 18 of those having high or very high seismicity. In 2011 and 
2012, earthquake practitioners and state and local leaders in Memphis, 
St. Louis, and other Midwestern locales will participate in events that 
will commemorate the bicentennial anniversary of the New Madrid 
sequence of earthquakes, which included at least four earthquakes with 
magnitudes estimated at 7.0 or greater.
    NEHRP is predicated on the reality that earthquakes are inevitable 
and will occur without warning, but that there is much the nation can 
do to minimize their consequences. The NEHRP agencies strive to perform 
the needed research and then translate the research results into 
actions that ensure that U.S. citizens are less threatened by 
devastating earthquakes. As described briefly in this testimony, the 
NEHRP agencies work in partnership, with each agency fulfilling its 
unique role, to perform a national service that simply cannot be 
duplicated by others. The studies and monitoring of the earthquake 
hazard cuts across both governmental and commercial boundaries. The 
research and implementation in both science and engineering by the 
NEHRP agencies is made possible by the ``critical mass'' they provide, 
which would not otherwise be possible if all responsibilities were left 
to the many states and (for the most part) small corporate entities 
that work in this field.

NEHRP Organization, Leadership, and Reporting

    NEHRP is authorized through the Natural Hazards Risk Reduction Act 
of 2004. The Senate Committee on Science, Commerce, and Transportation 
has introduced S. 646, the Natural Hazards Risk Reduction Act of 2011, 
to reauthorize these program. A similar bill was passed through the 
House of Representatives in the last session of Congress. We and the 
other agencies involved look forward to working with both chambers of 
Congress in the 112th Congress on this important legislation. The NEHRP 
Interagency Coordinating Committee (ICC) and the external Advisory 
Committee on Earthquake Hazard Reduction (ACEHR) continue to provide 
leadership to the program.

Interagency Coordinating Committee

    Since 2006, the ICC has been very actively engaged in NEHRP 
leadership, meeting formally and conducting informal exchanges of 
information. This has resulted in a significant increase in program 
visibility in each agency and in the Executive Office of the President 
and has elevated key interagency decisions directly to the agency 
leader level. The direct involvement of, and interactions between the 
agency leaders has greatly improved program coordination and 
efficiency. The ICC has actively overseen the development of NEHRP's 
annual reports and, most importantly, the development of the new NEHRP 
Strategic Plan that was released in October 2008. The ICC members 
viewed the significance of the Strategic Plan to be so great that they 
remained fully engaged with its development throughout its preparation.

Advisory Committee on Earthquake Hazards Reduction

    The ACEHR advises the NEHRP program on trends and developments in 
the science and engineering of earthquake hazards reduction; Program 
effectiveness in carrying out Program activities; Program management, 
coordination, implementation and activities; and any need for Program 
revision. The ACEHR first met in 2007 and consists today of 16 leading 
earthquake professionals from across the U.S., from all walks of the 
non-Federal earthquake practitioner sector.

Lead Agency

    The 2004 reauthorization designated NIST as the NEHRP Lead Agency 
with primary responsibility for planning and coordinating the Program.
    While NIST ``leads'' NEHRP activities it is only with the 
outstanding teamwork of all the agencies working together under well 
defined roles and responsibilities that NEHRP accomplishments occur. 
There is a genuine camaraderie, sense of common purpose, and dedication 
to improving earthquake safety and resilience among the agency 
representatives.

NEHRP Strategic Plan

Vision

    The 2008 Strategic Plan presents a new NEHRP vision for our nation:
      A nation that is earthquake-resilient in public safety, economic 
strength, and national security.
    This vision sets a fresh course for NEHRP, recognizing the 
importance of not only improving public safety in future earthquakes 
but also enhancing national economic strength and security. For 
example, if a southern California earthquake severely damaged the ports 
of Los Angeles and Long Beach, as happened to the port of Kobe, Japan, 
in 1995, there would be national economic implications. Similarly, if a 
major earthquake occurred in the Central U.S., one or more Mississippi 
River transcontinental rail or highway crossings in the Saint Louis to 
Memphis region, as well as oil and natural gas transmission lines could 
be severely disrupted. Working with its partners in both the Federal 
and non-Federal sectors, NEHRP can and should provide tools to assist 
the government and private sector entities who address those 
challenges.
    More significantly, the vision also recognizes the need for 
improving our national resilience in the face of future damaging 
earthquakes. Achieving resilience requires coordinated application of 
mitigation, redundancy, robustness, and response and recovery 
activities and is a vital issue for the nation.
    NEHRP does play a role in providing the means for improving 
response and recovery capacity. For example, led by FEMA and USGS, the 
NEHRP agencies are engaging in scenario demonstration projects, such as 
the 2008 Great Southern California Shakeout \1\ and subsequent similar 
activities. These projects serve to catalyze both pre-earthquake 
mitigation measures and post-earthquake response and recovery 
activities for state and local leaders.
---------------------------------------------------------------------------
    \1\ Http://www.shakeout.org/

---------------------------------------------------------------------------
Plan Structure

    The Strategic Plan sets three overarching program goals that 
involve synergies among the agencies: improve understanding of 
earthquake processes and impacts (basic research); develop cost-
effective measures to reduce earthquake impacts on individuals, the 
built environment, and society-at-large (applied research and 
development); and, improve the earthquake resilience of communities 
nationwide (knowledge transfer and implementation).
    The Plan also sets out nine areas of strategic priority for the 
program, areas of great importance to the nation that will be 
emphasized more prominently as resources become available to address 
them: fully implement the Advanced National Seismic System (ANSS); 
improve techniques for evaluating and rehabilitating existing 
buildings; further develop performance-based seismic design (PBSD); 
increase consideration of socioeconomic issues related to hazard 
mitigation implementation; develop a national post-earthquake 
information management system; develop advanced earthquake risk 
mitigation technologies and practices; develop guidelines for 
earthquake-resilient lifeline components and systems; develop and 
conduct earthquake scenarios for effective earthquake risk reduction 
and response and recovery planning; and, facilitate improved earthquake 
mitigation at state and local levels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 1. Primary NEHRP Activity Areas

    The slide above shows the primary roles of the four agencies and 
further emphasizes that NEHRP is incomplete without the significant 
contributions made by those outside the four agencies--in fact, that 
non-Federal community is a major factor in the historic success of 
NEHRP. In addition to the strong principles of ensuring synergy without 
duplication, the NEHRP agencies will seek, within their designated 
mission areas, closer ties to the international community. Not only can 
NEHRP-developed technologies be applied to help others, but the U.S. 
can learn from advances that are being made abroad.
    NEHRP agencies seek to foster synergies among disciplines as well 
as with those who work with other hazards, such as wind, flood, and 
fire. The NEHRP agencies are aware of the similarities, differences, 
and linkages that exist among the hazards. Most of the technical issues 
that are tied to monitoring hazard occurrence, assessing the resulting 
risks, and developing tools, standards, and guidelines for design and 
construction differ substantially from hazard to hazard, making direct 
interactions at that level difficult. However, there are opportunities 
for the coordination of some NEHRP activities with those that have 
parallels for other hazards: e.g., similarities in disaster response 
that can and should be shared with professionals in other hazard areas 
and similarities in structural response analysis for earthquakes and 
for blast or impact situations. Some key linkages provide excellent 
opportunities for multi-hazard cooperation, e.g., tsunami warnings for 
such events that are caused by earthquakes (USGS-provided data used by 
the National Weather Service) and structural fire effects from any 
source (NIST).
    The NEHRP agencies are also aware of the 30+ year history of 
organized NEHRP interaction with the earthquake professional community 
and state and local governments. This provides much organizational 
experience that can be shared with those working in other hazards-
related fields, which typically have not enjoyed long histories of such 
cooperation.

Recent NEHRP Activities-Fostering Technology and Knowledge Transfer

    The NEHRP agencies have worked both individually and collectively 
in recent years to improve the nation's earthquake resilience. Annual 
reports on the Program activities can be found at www.nehrp.gov. The 
following are brief descriptions of agency roles and accounts of some 
of their more prominent recent activities, as reported at the March 
2011 ACEHR meeting.

USGS

    The USGS is the applied earth science component of NEHRP. USGS 
delivers rapid characterization of earthquake size, location, and 
impacts; develops seismic hazard assessment maps and related mapping 
products; builds public awareness of earthquake hazards; and supports 
targeted research to improve monitoring and assessment capabilities. 
Noteworthy in 2011 is the USGS role in the U.S.-Japan Natural Resources 
Panel for Earthquake Research; this panel will be actively engaged in 
analysis of the recent Japan earthquake and its impacts on U.S. 
practice.

Monitoring

    The USGS has significantly advanced its delivery of comprehensive 
earthquake information from monitoring systems, in the U.S. and 
internationally. In the U.S., monitoring is accomplished via the 
developing Advanced National Seismic System (ANSS), which is now 
deployed at about 25% of its planned capacity. Internationally, USGS 
works in partnership with NSF and the Incorporated Research 
Institutions for Seismology (IRIS) to maintain the Global Seismographic 
Network as a tool for earthquake monitoring and research. The USGS 
National Earthquake Information Center (NEIC) assimilates all 
monitoring data on a 24/7 basis and issues rapid reports of potentially 
damaging earthquakes to key Federal, state, and local institutions, and 
to an electronic mailing list of over 250,000 users. USGS has 
implemented full on-site 24/7 operations at the NEIC and developed 
products such as the Prompt Assessment of Global Earthquakes for 
Response (PAGER) system that provides rapid (within minutes of 
earthquake detection) estimates of population exposure to strong 
shaking in earthquakes worldwide and delivers that to aid agencies, 
emergency managers, and others who use it to prioritize response 
activities. The most recent version of PAGER provides order-of-
magnitude estimates of fatalities and economic losses. The USGS is also 
working with the Department of Veterans Affairs (VA) to install seismic 
instrumentation at 27 VA medical centers around the country--this will 
provide valuable information on actual building responses in future 
earthquakes.

Mapping

    In 2008, the USGS released new U.S. national seismic hazard maps 
based on the most recent field observations and research results. The 
maps show that earthquakes are serious threats to 75 million people in 
39 states. The USGS used these updated hazard maps to develop new 
``risk-targeted earthquake'' (RTE) design maps for national model 
building codes that focus on the likelihood over time of building 
collapse due to earthquake ground motions instead of simply focusing on 
the likelihood of earthquake ground motions themselves. This has 
resulted in a lowering of earthquake design forces for many types of 
buildings in the Central and Eastern U.S. The USGS is also developing 
more detailed urban hazard maps for various areas; such maps have been 
released recently for Memphis and Seattle and are currently underway 
for St. Louis and Evansville, Indiana.

Scenario-Based Exercises

    In 2008, the USGS, California Geological Survey, and Southern 
California Earthquake Center produced a plausible scenario of a rupture 
of the southern end of the San Andreas fault that could result in about 
1,800 deaths, 50,000 injuries, and economic losses exceeding $200 
billion in the greater Los Angeles area. This scenario formed the basis 
for the 2008 Great Southern California Shakeout earthquake preparedness 
and response exercise. Over five million Southern California residents 
participated in the Shakeout, making it the largest public preparedness 
event ever held in the U.S. The State of California has begun annual 
renditions of the Shakeout exercise across the state. Along with FEMA, 
the USGS is supporting similar activities for the Great Central U.S. 
Shakeout that will be staged in April 2011.

Central U.S. Activities

    The Central U.S. has been a major focus of the USGS and its 
partners in the past year, with the approach of the bicentennial of the 
1811-12 New Madrid earthquake sequence there, which still ranks among 
the most severe earthquakes ever experienced in the U.S. In addition to 
its work in support of upcoming Great Central U.S. Shakeout, the USGS 
is working to support the FEMA National Level Exercise (NLE) 2011. In 
response to recommendations made by the NEHRP ACEHR, the USGS is 
working through its National Earthquake Prediction Evaluation Council 
(NEPEC) to support an independent evaluation of the hazard posed by the 
New Madrid Seismic Zone (NMSZ). The Arkansas Geological Survey and 
Center for Earthquake Research and Information at the University of 
Memphis, a regional network in the USGS Advanced National Seismic 
System, has been actively monitoring the recent swarm of low-magnitude 
earthquakes in north-central Arkansas.

NSF

    NSF is NEHRP's primary basic research arm, supporting research that 
addresses earth science, geotechnical and structural engineering, 
lifeline engineering, and the social sciences, and integrating those 
disciplines. Following the devastating 2010 earthquakes in Haiti and 
Chile, NSF convened workshops to develop consensus reports on research 
needs.

Earth Science

    NSF supports fundamental research related to seismology, geodesy, 
soil and rock mechanics, paleoseismology--the geologic studies of 
prehistoric earthquakes--structural geology, and relevant theoretical, 
modeling, and laboratory projects. Recent outcomes from these programs 
range from explanatory mechanisms for episodic tremor and slip observed 
along plate boundaries around the world to insight into the slip 
differential across the southern San Andreas Fault. This work has 
substantially improved the description and understanding of strain 
buildup along major plate boundary faults such as the southern San 
Andreas Fault and the southern California San Jacinto Fault.
    Following the 2010 earthquake in Haiti, NSF awarded grants 
supporting a five year project that installed and maintains 100 field 
stations around the Caribbean basin to provide continuous GPS (ground 
deformation) and weather monitoring. This new network is known as 
COCONet (Continuously Operating Caribbean GPS Observational Network).

NEES

    Established in 2004, the George E. Brown, Jr. Network for 
Earthquake Engineering Simulation (NEES) provides world-class 
experimental facilities at 14 academic institutions across the U.S. The 
facilities include seismic shake tables, geotechnical centrifuges, a 
tsunami wave basin, large strong-floor and reaction-wall facilities 
with unique testing equipment, and mobile and permanently installed 
field equipment. The network's cyberinfrastructure technology links the 
facilities via the Internet2 grid, forming the world's first prototype 
of a distributed ``virtual instrument,'' and includes a national 
repository for experimental data, as well as numerical simulation and 
collaborative tools.
    NEES plays a unique role among NEHRP agency investments for basic 
earthquake engineering research, providing diverse experimental 
capabilities, substantial user support, emphasis on education and 
outreach, and a university environment characterized by openness for 
academic, industry, and government use. NEES has promoted change in the 
earthquake engineering research culture through open access to 
unprecedented experimental capabilities, collaboration with 
experimental facility staff to develop formal testing protocols, 
archival of all experimental data in a community data repository for 
reuse by other investigators, and a new generation of students trained 
in advanced experimentation techniques and analytical modeling. NEHRP 
agency partners FEMA and NIST, and other Federal agencies, support 
projects to transfer NEES research findings into technical briefs for 
practitioners, performance-based seismic design (PBSD) guidelines, and 
seismic provisions in model building codes.
    NSF's Memorandum Concerning Cooperation in the Area of Disaster 
Prevention Research with the Japanese Ministry of Education, Culture, 
Sports, Science, and Technology enables U.S. researchers to use both 
NEES and Japan's Earth Defense (E-Defense) shake table, the world's 
largest shake table, to simulate seismic performance on large- to full- 
scale models with geotechnical and structural innovations. U.S. and 
Japanese researchers meet at least annually to discuss topics of mutual 
research interest and have a close collaborative relationship; as a 
result, several joint U.S.-Japan projects have now been performed using 
the E-Defense facility.
    NSF continues to support, along with other Federal agencies, the 
Natural Hazards Center at the University of Colorado, Boulder. The 
Center's annual July workshop assembles leading U.S. natural hazards 
researchers, policy makers, and practitioners. This is the major 
national forum for linking the producers of research with appropriate 
user communities.

NIST

    NIST has devoted significant attention to establishing the NEHRP 
program. The Secretariat has established the NEHRP web site 
(www.nehrp.gov) that contains much information about the Program, links 
to all of the NEHRP agency sites, links to other organizations that are 
involved with earthquake-related research and implementation issues, 
and an electronic clearinghouse of documents produced by NEHRP 
activities.
    Through the NEHRP Secretariat, NIST has sponsored a NEHRP-wide 
study by the National Research Council (NRC) that will provide a broad 
20-year roadmap for the NEHRP agencies to consider as they implement 
the NEHRP Strategic Plan. The NRC study assembled a broad panel of 
national experts in earthquake risk reduction to identify and 
prioritize possible activities that could be considered to achieve the 
objectives set out in the NEHRP Strategic Plan, and to estimate the 
costs of those activities. The results of the study were released on 
March 30, 2011 and are now widely available.
    In 2010 and 2011, the NEHRP Secretariat has also worked to support 
the U.S.-Japan Natural Resources Panel on Wind and Seismic Effects and 
is currently in frequent communication with Japanese counterparts 
regarding possible cooperative efforts to survey and analyze the damage 
that occurred in the recent Japan earthquake. The NEHRP Secretariat is 
also engaged in leading the Federal Interagency Committee on Seismic 
Safety in Construction (ICSSC) and currently supports s an independent 
study to develop updated standards for seismic evaluation and 
rehabilitation of existing Federal buildings.
    NIST's technical role in NEHRP is chiefly one of linking the basic 
research products that come from NSF-supported university research with 
the implementation activities that are largely led by FEMA. Commencing 
in 2007 and continuing now, in a strong commitment to the Program, NIST 
began strengthening its capabilities in the earthquake research arena, 
to bridge the research-to-implementation gap. The NIST earthquake risk 
mitigation research program supports several key areas: providing 
technical support for the earthquake engineering practice and building 
code development process; developing the technical basis for 
performance-based seismic design; supporting the development of 
technical resources that improve earthquake engineering practice; and, 
making developed and evaluated technologies available to practitioners 
in the design and construction communities. These activities are 
consistent with the NIST mission of serving the measurement and 
standards needs of the building and fire safety industries. NIST is a 
critical source of metrics, models, and knowledge for predicting the 
extent of damage from natural and man-made hazards, mitigating their 
impact, and helping to enhance the disaster resilience of communities 
and the built environment.
    NIST performs about half of its earthquake research via a 
contractual partnership with the NEHRP Consultants Joint Venture, which 
links NIST with the nation's leading earthquake engineering researchers 
and practitioners. Several projects have been completed, and additional 
projects are ongoing. In addition, NIST has been building its in-house 
capabilities by hiring new earthquake research staff members.
    Given the unique nature of the necessary interaction between NIST 
and FEMA in fulfilling their respective roles, the two agencies have 
formed a special partnership with their programs that involves 
complete, frequent exchanges of project information and in some 
instances actual direct collaboration on projects that involve 
complementary topic areas. The Administration has committed NIST to 
support post-earthquake investigations for NEHRP. The President's 2012 
budget request includes funding to support the formation of a formal 
Disaster and Failure Studies Program at NIST that would include post-
earthquake investigation activities, in addition to field studies in a 
number of other hazards areas. Following the 2010 Chile earthquake, 
FEMA, NIST, and USGS staff members joined scientists and engineers 
sponsored by American Society of Civil Engineers (ASCE) and the NSF-
supported Earthquake Engineering Research Institute (EERI) Learning 
from Earthquakes (LFE) program in surveying the damage to Chilean 
infrastructure. Following the field work, NIST co-sponsored a Chile 
research needs meeting with American Society of Civil Engineers and the 
Pacific Earthquake Engineering Research (PEER) Center that resulted in 
NIST's making mid-year programming changes to focus key research 
efforts on lessons learned from the Chile earthquake.

FEMA

    While the other agencies contribute to NEHRP implementation 
efforts, FEMA is NEHRP's primary implementation and outreach arm.

Implementation Activities

    FEMA has a prominent NEHRP leadership role in working with the 
practitioner community, the ASCE, and the International Code Council 
(ICC) to support the development of model building code provisions. 
FEMA works with the Building Seismic Safety Council (BSSC) to develop 
the next generation of the NEHRP Recommended Provisions for Seismic 
Regulations for New Buildings and Other Structures (FEMA P-750) that 
was released in early 2010 for use in future ASCE standards and model 
building codes. USGS in turn supports the development of the 
Recommended Provisions with its hazards mapping activities.
    FEMA works directly with the model building code organizations to 
assist in the development of new seismic provisions for new editions of 
the International Codes, or ``I-Codes,'' that are promulgated by the 
ICC. The I-Codes have been adopted in part or whole by all 50 states, 
standardizing safe design practices nation-wide. FEMA supports projects 
to develop earthquake engineering guidelines for designers and works 
closely with NIST in this activity. This partnership and the resulting 
development, publication, dissemination, and promotion of building 
design and construction materials are signature elements of NEHRP.
    FEMA has developed and published over 200 earthquake design 
guidance publications on all aspects of earthquake risk mitigation, 
including: seismic design and construction of new buildings; evaluation 
and cost-effective rehabilitation/retrofit of existing hazardous 
structures; and other related structural and non-structural issues. 
FEMA has pioneered developmental work that supports the emergence of 
Performance-Based Seismic Design of buildings. Basic research supported 
by NSF has supported this effort, and, in recent years, NIST has 
initiated several knowledge transfer projects that complement the FEMA 
activity. PBSD is essential to fostering resilience in the constructed 
environment, because it helps engineers to work with building owners to 
enhance building performance beyond the basic life safety that is 
provided by the prescriptive measures found in model building codes.
    FEMA began a significant new public outreach effort in 2008 with 
its new QuakeSmart initiative, which is designed to encourage business 
leaders and owners in areas that are at risk from earthquakes to take 
actions that will mitigate damage to their businesses, provide greater 
safety for customers and employees, and speed recovery if an earthquake 
occurs. The initiative began with a series of Community Forums in four 
cities in the Midwest and on the West Coast. Further forums are 
scheduled and FEMA is working with the Home Depot and ServiceMaster 
companies to broaden public outreach.

Outreach Activities

    To support and increase the adoption of NEHRP earthquake resiliency 
measures, FEMA leads NEHRP efforts to maintain strong partnerships with 
other earthquake and hazards-related agencies, state and local 
governments, academia, the research community, code enforcement 
officials, design professionals, and the remainder of the private 
sector.
    FEMA provides technical and financial assistance to states to 
increase awareness of the earthquake hazard and to foster plans to 
reduce seismic vulnerabilities. To provide state financial assistance, 
FEMA administers the Earthquake Hazards Reduction State Assistance 
Program which provides financial support to 33 states and territories.
    FEMA also provides grants to support earthquake-related outreach 
and educational activities that promote earthquake mitigation and 
awareness to a series of multi-state consortia and organizations, 
including the Cascadia Regional Earthquake Working Group (CREW), which 
serves states in the Pacific Northwest affected by the Cascadia 
Subduction Zone and related faults; the Central United States 
Earthquake Consortium (CUSEC), which serves the states impacted by the 
New Madrid seismic zone; the Northeast States Emergency Consortium 
(NESEC), which serves northeastern states on a multi-hazard basis; and 
the Western States Seismic Policy Council (WSSPC).
    In addition to outreach activities to promote training courses and 
publications, to improve education and awareness, FEMA has co-sponsored 
series of informational conferences, including the National Earthquake 
Conference held in Seattle in April 2008, as well as the 100 Year 
Anniversary of the 1906 San Francisco Earthquake. Along with USGS, FEMA 
is providing support for the upcoming National Level Exercise (NLE) 
2011 and the Great Central U.S. Shakeout. The NLE 2011 will focus on 
testing the earthquake catastrophic plan and the emergency response 
capacity of the NMSZ states.
    In a project closely related to its other NEHRP efforts, FEMA 
completed development and publication of its Guidelines for Design of 
Structures for Vertical Evacuation from Tsunamis. This document was 
jointly funded by FEMA and the National Oceanic and Atmospheric 
Administration (NOAA). NOAA issues tsunami warnings and leads the 
TsunamiReady program, a community preparedness and mitigation 
initiative. Tsunami safety is a critical issue for many coastal 
communities along the West Coast of the U.S. that are vulnerable to 
tsunami. The States of Oregon and Washington have already expressed 
interest in using this publication. This publication has taken on added 
significance as a result of the recent Japan earthquake and tsunami.

Conclusion

    The earthquakes of the past fourteen months--Haiti, Chile, New 
Zealand and now Japan--remind us of the persistent nature of the 
tectonic forces active within the Earth. There is nothing we can do to 
stop these processes, but the impacts of earthquakes, while not 
completely avoidable, can be greatly reduced.
    Two major lessons from the recent earthquakes can be simply stated:

        <bullet>  Devastating earthquakes strike without warning, often 
        at locations where their size and impacts are not fully 
        expected.

        <bullet>  Earthquake preparedness and resilience measures can 
        greatly reduce losses of lives, property, economic capacity, 
        and societal well being.

    These lessons seem obvious. But, we have recently seen nature teach 
them to us again, at the expense of others less fortunate and 
incompletely prepared. There is no need or justification for us to be 
forced to re-learn these lessons at home. Our challenge is to see that 
the new knowledge and experience gained through NEHRP continues to be 
developed and applied to domestic practices and policies that foster a 
more resilient American society.
    Chairman Quayle and other Subcommittee Members, thank you again for 
the opportunity to testify on NEHRP activities. This concludes my 
remarks. I shall be happy to answer any questions you may have.

  Biography for Dr. Jack Hayes Director, National Earthquake Hazards 
                        Reduction Program, NIST

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Quayle. Thank you, Dr. Hayes.
    I now recognize Mr. Jim Mullen, Director, Washington State 
Emergency Management Division, and President of the National 
Emergency Management Association, to present his testimony.

    STATEMENT OF MR. JIM MULLEN, DIRECTOR, WASHINGTON STATE

          EMERGENCY MANAGEMENT DIVISION AND PRESIDENT,

           NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Mr. Mullen. Thank you, Chairman Quayle, Ranking Member Wu 
and distinguished Members of the Subcommittee for the 
opportunity to testify today regarding earthquake preparedness. 
I am President of the National Emergency Management Association 
and we represent the state emergency management directors of 
the 50 states, territories and the District of Columbia. I have 
submitted my written statement for the record already so I will 
take advantage of this opportunity to summarize my statement 
and leave some time for questions.
    The initial phase of an incident, whether it is an 
earthquake or a tsunami or a hurricane, usually involves the 
lights and sirens of response, and while firefighters, law 
enforcement officials and emergency medical personnel bravely 
constitute the traditional first responders, emergency managers 
provide the all-important function of coordination. Emergency 
managers often manage multiple events simultaneously while 
preparing for a wide range of hazards from floods and 
earthquakes to category 5 hurricanes and terrorist attacks.
    The response to an incident usually includes three phases 
of escalation. First, the local jurisdiction responds with 
immediately available assets. Should the local jurisdiction 
become overwhelmed, my counterparts at the state level are 
available to provide more robust state capabilities. On 
occasion, an event will even overwhelm the state, and this is 
usually the only time in which the Federal Emergency Management 
Agency is called upon to offer assistance. Without broad 
coordination by emergency managers during the response phase 
and this escalation of assistance, the transition from response 
to recovery would be nearly impossible.
    In my written statement, I go into more detail on the 
National Earthquake Hazard Reduction Program and other 
witnesses have and will address it specifically, but I would be 
remiss if I didn't stress the importance of Congress 
reauthorizing this program. Without adequate authorization and 
funding of NEHRP, the collaborative work done by several 
federal agencies and institutes could leave communities without 
a critical source of research and technical assistance on 
earthquake preparedness. This work is invaluable during the 
planning for a response, but irreplaceable during a disaster. 
Programs such as NEHRP and the response and recovery issues I 
just discussed will be on display this May during a national-
level exercise throughout the mid-central United States. This 
exercise is sponsored by FEMA, and through the simulation of a 
major earthquake on the New Madrid Seismic Zone will test the 
policies and doctrines of the Federal Government and eight 
states. This endeavor will involve thousands of government 
officials at the federal, state, local and tribal levels, 
members of the private sector and the general public. Once this 
exercise is complete, I am quite sure the Committee will be 
interested in any after-action report FEMA can make available.
    Exercises, and programs such as NEHRP only go so far, 
however, in establishing a baseline capability for response and 
exercise efforts. Each year, Congress supports one of the most 
critical programs the Federal Government has to offer. The 
Emergency Management Performance Grants, or EMPG, allow state 
and local emergency managers the ability to enhance their 
capability to protect lives and property. This coordination 
between state and local emergency managers is critical prior to 
an event. Since inception, EMPG has required a 50 percent non-
federal match, and many state and local jurisdictions regularly 
overmatch.
    To give you an idea of the impact of EMPG, consider the 
following examples. In 2009, 59 disasters occurred which 
required a Presidential Declaration and federal assistance. At 
the state level, however, 180 disasters required a 
gubernatorial declaration but no federal assistance, and 
another 122 events required State resources but no declaration. 
Without solid capabilities at the state and local levels 
afforded through EMPG, these events normally not requiring 
federal action could need significant federal expenditures.
    As you can see, the emergency management process is 
complicated, and while I strayed somewhat from earthquakes 
specifically, this demonstrates the need to be prepared for a 
wide range of events from the initial response to the 
transition to recovery to the various levels of support FEMA 
can offer and the programs such as EMPG and NEHRP help states 
stand on their own. There is much we can accomplish if that 
program continues.
    The emergency management team stands ready to continue 
assisting you in Congress in ensuring the safety and security 
of millions of Americans against a broad range of hazards and 
threats.
    I thank you for this opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Mullen follows:]

    Prepared Statement of Mr. Jim Mullen, Director, Washington State
              Emergency Management Division and President,
               National Emergency Management Association

Introduction

    Thank you Chairman Quayle, Ranking Member Wu, and distinguished 
Members of the Subcommittee for the opportunity to testify today 
regarding earthquake preparedness and efforts undertaken each and every 
day by dedicated emergency management professionals to help protect 
lives and property.
    Emergency management is far more complex, however, than discussing 
specific response and recovery efforts of just one hazard. We often 
manage multiple events simultaneously while preparing for a wide range 
of hazards from floods and earthquakes to Category 5 hurricanes and 
terrorist attacks.
    While other witnesses today have highlighted the attributes of the 
National Earthquake Hazard Reduction Program (NEHRP), I will go over 
general response and recovery issues, current efforts underway to 
simulate a massive earthquake in the Mid-Central region of the country, 
and recommend the best way you can support your state and local 
emergency managers.

Response & Recovery

    A major event involving multiple disciplines is complex and 
difficult to manage. While firefighters, law enforcement officials, and 
emergency medical personnel often constitute the traditional first 
responders, emergency managers provide the all important coordination 
function. This coordination far exceeds the initial response as 
emergency managers also maintain responsibility for the transition from 
the lights and sirens of response into the complex and often long-term 
efforts of recovery.
    Once an event occurs, the response is a three-tiered process of 
escalation where the level of support is directly related to the need 
of the impacted jurisdiction. The initial response is at the local 
level where first responders and local emergency managers provide 
assistance. Should the incident exceed the capacity of those local 
responders, the state may offer assistance in myriad ways including 
personnel, response resources, financial support, and mutual aid. On 
rare occasions, an event will even overwhelm the state's ability to 
mount an effective response. This is usually the only time in which the 
Federal Emergency Management Agency (FEMA) is called upon to offer 
assistance.
    FEMA assistance is triggered by a direct request from the Governor 
to the President. Should the President deem the event worthy of federal 
assets, a Presidential Disaster Declaration is declared and FEMA can 
provide assistance such as assets from the Department of Defense, 
financial aid, and expertise.
    Disaster assistance from FEMA traditionally comes in one of three 
forms. The first is the Public Assistance (PA) Program which provides 
supplemental financial assistance to state and local governments as 
well as certain private non-profit organizations for response and 
recovery activities required as a result of a disaster. The PA Program 
provides assistance for debris removal, emergency protective measures, 
and permanent restoration of infrastructure. Federal share of these 
expenses are typically not less than 75 percent of eligible costs. The 
PA Program encourages protection from future damages by providing 
assistance for Hazard Mitigation Measures pursuant to Section 404 of 
the Stafford Act during the recovery process.
    The next level of assistance is the Individual and Family Grant 
Program or Individual Assistance (IA) which may provide money and 
services to eligible individuals in the declared disaster area when 
losses are not covered by insurance and property has been damaged or 
destroyed. Assistance for Individuals and Households may include cash 
grants for housing assistance and other needs assistance. Homeowners 
may use these grants for essential repairs to make their residence 
safe, secure, and livable. IA is designed to help with critical 
expenses not already covered by other means.
    Finally, the federal government can provide assistance to prevent 
damage from occurring in the future through the Hazard Mitigation Grant 
Program (HMGP). HMGP provides funding to local communities for projects 
and plans to reduce damages, losses, and suffering in future disasters. 
Hazard mitigation is the ongoing effort to lessen the impact disasters 
have on lives and property. Coupled with HMGP, FEMA sponsors programs 
including Flood Mitigation Assistance Program (FMA) and Predisaster 
Mitigation Program (PDM). Such measures could include communities 
removing homes from flood-prone or landslide-prone areas, elevating 
houses, tornado safe rooms and community shelters, and other projects 
that may help reduce the impact from the next inevitable disaster.
    While FEMA can provide all these forms of assistance after a 
disaster, part of the preparedness puzzle is learning how we all work 
together in forming a seamless response and recovery effort. As 
emergency managers, we best practice through the use of regular 
exercises and after-action reviews.

New Madrid National Level Exercise

    After a significant event, the question is often asked ``Can this 
happen to us?'' In the case of the recent earthquake in Japan, the 
answer is most certainly ``yes.'' In fact, one of the most severe 
earthquakes in history occurred in 1812 along the New Madrid Seismic 
Zone (NMSZ) in the Mid-Central United States.
    This year, FEMA is sponsoring National Level Exercise 2011 (NLE 
2011). The purpose of NLE 2011 is to prepare and coordinate a multiple-
jurisdictional integrated response to a national catastrophic event--
specifically a major earthquake in the central United States region of 
the NMSZ.
    The exercise will involve thousands of government officials at the 
federal, state, local, and tribal levels, members of the private 
sector, and the general public. Participants will conduct simultaneous, 
related exercise activities at Command Posts, Emergency Operation 
Centers and other locations in the Washington DC. area and the eight 
affected central U.S. states including Alabama, Arkansas, Illinois, 
Indiana, Kentucky, Mississippi, Missouri, and Tennessee. NLE 2011 will 
offer agencies and jurisdictions a way to validate their plans and 
skills in a real-time, realistic environment and to gain the in-depth 
knowledge only available through experience.
    NLE 2011 is also an opportunity to continue highlighting to the 
public their need to be prepared for earthquakes, and specific steps 
they can take to be ready. Exercises only go so far, however, in 
establishing a baseline capability for response and exercise efforts. 
Each year Congress supports one of the most critical programs the 
federal government has to offer. The Emergency Management Performance 
Grant (EMPG) Program allows state and local emergency managers the 
ability to enhance the capability to protect life and property.

Emergency Management Performance Grants

    Often referred to as the ``backbone of the nation's emergency 
management system,'' EMPG allows state, tribal, and local governments 
to make key investments in building capacity and enhancing the 
capability of states and localities to respond to disasters.
    EMPG stands as the only source of federal funding directed to 
state, local, and tribal governments for planning, training, exercises, 
and key professional expertise for all-hazards emergency preparedness. 
In addition, EMPG supports emergency operations centers, which are the 
coordination hubs for all disaster response and to conduct risk and 
hazard assessments. The program also provides public education and 
outreach, enhanced interoperable communications capabilities, and the 
ability to manage statewide alerts and warnings.
    Since inception, EMPG has required at least 50 percent non-federal 
match. This partnership recognizes every level of government as having 
an interest in building emergency management capacity nationwide. Even 
during these tough economic times, state and local governments continue 
to demonstrate a commitment to building capacity by contributing far in 
excess of the required 50 percent contribution.
    EMPG allows states and local jurisdictions to respond to or support 
emergency incidents involving threats to life or property. Direct 
support includes activation of emergency operations centers, deployment 
of personnel, and the mobilization of resources. In order to illustrate 
the impact of EMPG throughout the emergency management community, it is 
significant to call attention to the many disasters occurring each year 
not requiring a presidential disaster declaration.
    For example, in 2009, 59 disasters occurred requiring a 
presidential declaration and federal assistance. At the state level, 
however, 180 disasters required a gubernatorial declaration but no 
federal assistance, and another 122 events required state resources but 
no declaration. According to a recent joint survey we conducted with 
the International Association of Emergency Managers (IAEM), more than 
44,637 actual local and tribal emergency response incidents, including 
19,571 state response incidents, were supported utilizing EMPG funds. 
Without solid capabilities at the state and local level afforded 
through EMPG, events normally not requiring federal action could 
realize significant federal expenditures.

National Earthquake Hazard Reduction Program

    While other witnesses have discussed NEHRP, I would be remiss if I 
did not also make mention of the program in this testimony. Since 
Congress established NEHRP in 1977, the building code standards, 
technical guidance, education, and research have been critical to 
reducing risks to life and property resulting from earthquakes. FEMA 
works in a support role to the National Institute of Standards and 
Technology (NIST) which is the lead agency under NEHRP. The emergency 
management community relies heavily on the actionable data provided by 
the program.
    One of the key responsibilities of FEMA is supporting public-
private partnerships to help inspire and sustain disaster-resilient 
communities. By providing estimates of potential losses due to seismic 
hazards to decision makers on the State and local level, FEMA leverages 
the work supported by NEHRP allowing communities to develop earthquake 
resistant design, public outreach and education programs, and 
construction standards and building codes.
    Without adequate authorization and funding of NEHRP, the 
collaborative work done by NIST, National Science Foundation, FEMA, and 
the U.S. Geological Society could leave communities without a critical 
source of research and technical assistance. The information 
disseminated by NEHRP partner agencies inform public education efforts 
and this outreach can help communities across the country understand 
seismic risks and use this understanding to take action by mitigating 
their homes and businesses.
    For example, in my home State of Washington, we utilize NEHRP to 
conduct seismic needs assessments of public schools with the aim of 
developing a methodology to assess all public schools for seismic 
safety throughout the state. We are also creating a plan for improving 
our resilience to damaging earthquakes through the Resilient Washington 
State Initiative. Due to the success of this initiative, Oregon has 
also recently passed a resolution to complete a similar resiliency 
project.
    We remain thankful of FEMA Administrator Fugate's continued support 
of the use of hazard and risk data developed by NEHRP and other similar 
programs used to inform mitigation decisions throughout the emergency 
management community. He also consistently discusses the need to invest 
in mitigation on the early and often to alleviate response and recovery 
efforts and costs after an incident occurs. As we learned following the 
catastrophic disaster in Japan last month, even the best mitigation 
efforts cannot prevent damage or loss of life from an earthquake but it 
unequivocally reduces the risk and helps a community recover sooner as 
a sustainable and safer place to live and do business.

Conclusion

    As you can see, the response and recovery from any hazard, not just 
earthquakes, is complex and fraught with potential pitfalls. The 
continued support from Congress can provide emergency managers the 
assets to continue effectively managing these events in order to 
protect lives and property. EMPG, NEHRP, and the range of response and 
recovery programs constitute an invaluable toolbox of options for 
emergency manager. As you continue to explore these issues, we offer 
NEMA as a resource.

   Biography for Mr. Jim Mullen, Director, Washington State Emergency
         Management Division and President, National Emergency
                         Management Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Quayle. Thank you, Mr. Mullen.
    I now recognize Mr. Chris Poland, Chairman and Chief 
Executive Officer, Degenkolb Engineers, and Chairman of the 
NEHRP Advisory Committee, for five minutes to present his 
testimony.

          STATEMENT OF MR. CHRIS POLAND, CHAIRMAN AND

          CHIEF EXECUTIVE OFFICER, DEGENKOLB ENGINEERS

             AND CHAIRMAN, NEHRP ADVISORY COMMITTEE

    Mr. Poland. Thank you, Mr. Chairman, Members of the 
Committee. I appreciate the opportunity to testify on behalf of 
the American Society of Civil Engineers.
    Over the course of my structural engineering career that 
began in the early 1970s, the goal of seismic design has 
undergone a radical change. When I started working, it was all 
about keeping people safe. Since then, the primary goal has 
expanded to also include protecting communities so that they 
can recover quickly, and that is a much more complicated 
problem. This transition brought with it the need to design 
parts of the community to be undamaged and immediately usable, 
other portions to be usable while being prepared, and the 
majority be usable after repair. The communities' lifeline 
systems need to be designed so that they can be restored 
quickly and support recovery.
    Achieving this goal is the focus of the current national 
strategic plan for the NEHRP program. We believe it is in the 
federal interest to continue pursuing resilience for the sake 
of national security, interstate commerce, public safety, 
economic strength and community restoration. I would also like 
to point out that this work will stimulate jobs and protect 
neighborhoods, protect people and the small businesses that 
serve them.
    You have asked us to comment on whether we think we are 
prepared, and what I can say as a structural engineer is that 
depends. We are certainly more prepared than Haiti was 
prepared. But at the same time, we know that we are nowhere 
near as prepared as Japan was prepared, and we know what 
happened in Japan.
    For me, I don't think we are prepared as a Nation to face a 
major earthquake and the impacts it will have. The vast 
majority of our building stock and utility systems in place 
today were not designed for earthquake effects, let alone given 
the ability to recover quickly from strong shaking and land 
movement. The tools and process we have available to achieve 
those goals are honestly too expensive to implement.
    Each earthquake brings different styles of shaking, and new 
insights into the performance of the built environment. Each 
event reminds us that there is a lot of uncertainty about what 
causes failures and that generally leaves the profession 
developing conservative solutions to the problems the observe. 
That is what causes the very expensive price tag. Continuing 
and expanding the significant ongoing research will lead to 
engineering tools and processes that will allow the needed 
cost-effective solutions to be developed and implemented.
    Last week, the National Research Council of the National 
Academies released a study that recommends a roadmap of what 
needs to be done to implement the NEHRP strategic plan. The NRC 
list of needed activities is comprehensive and it certainly 
justifies the reauthorization of the NEHRP program. They have 
called for a 20-year program that moves at a much faster pace 
than NEHRP is currently proceeding. On behalf of my clients who 
seek to achieve resiliency at an affordable level, I fully 
support the NRC recommendations and call for a faster pace. We 
need to accomplish resiliency in our Nation, and at the pace we 
are going, we are not going to accomplish it maybe ever.
    I recognize the NRC programs address four fundamental needs 
of resiliency. They point out that we need to significantly 
increase our ability to gather information, data, catalog it 
and store it on what happens. Extensive instrumentation is 
needed to understand how strong the earthquake shakes 
everywhere after an event. We know the shaking is different in 
every block of a city. You can tell that by the damage that 
occurs, and right now we only have a handful of instruments in 
each city to tell us what is happening.
    In addition to that, a network of operation centers is 
needed to record, catalog and maintain information related to 
the impacts on society and their response. Just cataloging how 
a community responds to and recovers from an earthquake, that 
process has never been done in a coordinated matter. We need 
that information.
    We need a framework that defines resilience in terms of 
what is needed to recover. Resiliency is more about 
improvisation, adaptation and redundancy than about how any 
single building or system performs. We design single buildings 
and systems but we need resilient communities. We should not 
spend money on things that we can improvise around. A 
consistent national framework for measuring, monitoring and 
evaluating community resilience is needed to guide the 
development of the new tools and processes. This is a 
fundamental need that we have. We need social science research 
to quantify the role of improvisation and adaptation and to 
determine how decisions are made.
    Achieving earthquake resilience requires a community-based 
holistic approach to response that includes decisions and 
actions that are based on overarching goals, a clear 
understanding of the built environment, rapid and informed 
assessment data, and planned reconstruction and recovery. 
Research on the gathered data will allow lessons to be learned 
in one community and transferred to the next. That is a process 
that doesn't go on right now.
    Finally, we need to develop performance-based engineering 
design tools that can be used nationwide. For the past decade, 
the engineers have been developed performance-based standards 
but these early efforts have been severely limited by 
insufficient data on building performance, insufficient 
analysis tools to predict performance, and inadequate training 
in the use of developing techniques. Basic research, extensive 
full-scale testing, applied research and implementation 
programs are needed to complete the development of the 
standards that will make achieving resilience affordable and 
cost-effective.
    I appreciate the opportunity to present our views and urge 
you to recognize the value of the work, the extraordinary work 
that needs to be done and to reauthorize the NEHRP program. I 
would be very happy to answer any questions you have. Thank 
you.
    [The prepared statement of Mr. Poland follows:]

 Prepared Statement of Mr. Chris Poland, Chairman and Chief Executive 
                               Officer, 
       Degenkolb Engineers and Chairman, NEHRP Advisory Committee

    Mr. Chairman and Members of the Committee: I am Chris Poland and I 
am testifying on behalf of the 140,000 members of the American Society 
of Civil Engineers (ASCE). At ASCE, I am Chairman of the Infrastructure 
and Research Policy Committee. Additionally, I serve as Chairman, 
Degenkolb Engineers; and I serve as Chairman of the National Earthquake 
Hazards Reduction Program (NEHRP) Advisory Committee.I am registered 
civil and structural engineer, and have worked for more than 35-years 
as an advisor on government programs for earthquake hazard mitigation 
and in related professional activities.
    My professional experience includes projects of all construction 
types, ranging from new design to seismic retrofit and rehabilitation 
and historic preservation. I was the founding co-chair of the NEHRP 
Coalition for Seismic Safety and chaired the ASCE Standards Committee 
on Seismic Rehabilitation and the U.S. Department of Veterans Affairs 
Advisory Committee on Structural Safety. I am a member of Boards of the 
San Francisco Chamber of Commerce and the San Francisco Planning and 
Urban Research Association and elected as a member of the National 
Academy of Engineering in recognition of my career long work in support 
of Performance Based Earthquake Engineering. I served on the Board of 
the Earthquake Engineering Research Institute (EERI) for ten years in 
two separate roles, first as the Secretary and then as the President 
from 2001 to 2002.
    ASCE, founded in 1852, is the country's oldest national civil 
engineering organization representing more than 140,000 civil engineers 
in private practice, government, industry and academia dedicated to the 
advancement of the science and profession of civil engineering. ASCE is 
a 501(c)(3) non-profit educational and professional society. Research 
in civil engineering, properly conceived, conducted and implemented, 
should assure significant advances in the quality of life of 
individuals by providing essential service with minimal adverse effects 
on the environment by applying the principle of sustainable development 
and disaster resilience.
    ASCE is pleased to offer this testimony before the Technology and 
Innovation Subcommittee on the House Science, Space and Technology 
Committee on the hearing, ``Are We Prepared? Assessing Earthquake Risk 
Reduction in the United States''.

Shift from Safety to Resilience

    During my career as a Structural Engineer and Earthquake 
Professional, the focus and goal of seismic design work has undergone a 
radical change. As the result of the damage and economic impact that 
occurred during major earthquakes and other natural disasters over the 
past 20 years, the primary goal of hazard reduction has shifted from 
one aimed at protecting people to one that also seeks to protect the 
built environment to the extent necessary to allow rapid recovery. This 
transition brought with it the need to design portions of the built 
environment to be immediately usable without interruption, other 
portions to be usable while being repaired, and the majority to be 
usable after repair. This change in performance expectation is often 
referred to as a change from a life safety goal to a resilience goal. 
Achieving this goal is the focus of the current strategic plan for the 
National Earthquake Hazard Reduction Program (NEHRP 2008). This is new 
territory and the basic research, applied research, and guidelines that 
are needed for success are in a formative stage.
    It also must be recognized that resilience is not just about the 
built environment. It starts with individuals, families, communities, 
and includes their organizations, businesses, and local governments. In 
addition to an appropriately constructed built environment, resilience 
includes plans for post event governance, reconstruction standards that 
assure better performance in the next event, and a financial roadmap 
for funding the recovery. This new style of planning and implementation 
must be tailored to the socioeconomic and cultural aspects of each 
community. Resilient communities form resilient regions and states 
which in turn will create a resilient nation. While the nation can 
promote resilience through improved design codes and mitigation 
strategies, implementation and response occur at the local level. 
Making such a shift to updated codes and generating community support 
for new policies are not possible without solid, unified support from 
all levels of government.
    The federal government needs to set performance standards that can 
be embedded in the national design codes, be adamant that states adopt 
contemporary building codes including provisions for rigorous 
enforcement, provide financial incentives to stimulate mitigation that 
benefits the nation, and continue to support research that delivers new 
technologies that minimize the cost of mitigation, response, and 
recovery. Regions need to identify the vulnerability of their lifeline 
systems and set programs for their mitigation to the minimum level of 
need. Localities need to develop mandatory programs that mitigate their 
built environment as needed to assure recovery. (ACEHR 2009)

Are we prepared?

    No.
    The vast majority of our building stock and utility systems in 
place today were not designed for earthquake effects let alone given 
the ability to recover quickly from strong shaking and land movement. 
Earthquake Engineering is a new and emerging field and only since the 
mid 1980s has sufficient information been available to assure safe 
designs. Design procedures that will assure resilience are just now 
being developed. Strong, community destroying earthquakes are expected 
to occur throughout the United States. In most regions outside of 
California, little is being done about it. While modern building codes 
and design standards are available, they are not routinely implemented 
on new construction or during major rehabilitation efforts because of 
the complexity and cost. Many communities do not believe they are 
vulnerable and if they do accept the vulnerability, find the demands of 
seismic mitigation unreachable.
    The problem of implementation and acceptance does not just lie with 
the public, but also with the earthquake professionals. Because this is 
an emerging area of understanding, conservatism is added whenever there 
is significant uncertainty. Earth Science research has made great 
strides in identifying areas that will be affected by strong shaking. 
Unfortunately, each earthquake brings different styles of shaking and 
building performance. This leaves many structural engineers generally 
uncertain about what causes buildings to collapse, and unwilling to 
predict the extent of damage that will occur, let alone whether a 
building will be usable during repairs or if lifeline systems can be 
restored quickly enough. Resilience demands transparent performance and 
significant earthquake science and earthquake engineering research and 
guideline development is needed to bring that ability to communities.

Recommend areas that need Federally Sponsored Research

    The NEHRP was originally conceived to provide the knowledge, tools, 
and practices needed for earthquake risk reduction and has steadily 
made progress toward that goal. Many argue that the research that is 
needed to assure safety is complete. While that is debatable, it is 
certainly not the case for the research and tools needed to provide 
resilience. The 2009-2013 NEHRP Strategic Plan represents a broad-based 
and comprehensive statement of what activities are needed to achieve 
resilience through basic research, development of cost effective 
measures to reduce impacts, and sponsorship of implementation programs 
at all levels. It was developed over a three year period with input and 
review by the earthquake professional community and represents 
consensus about what needs to be done by the Federal Government through 
the core Federal Agencies.
    Last Week, the National Research Council of the National Academies 
(NRC 2011) released a study that recommends a road map of national 
needs in research, knowledge transfer, implementation, and outreach 
that will provide the tools needed to implement the NEHRP Strategic 
Plan and achieve its vision of a nation that is earthquake resilient in 
public safety, economic strength, and national security. The NRC study 
stands on a foundation of numerous similar reports that have been 
produced over the past 20 years and have persistently outlined what is 
needed. The list of references in the NRC report includes a complete 
listing of the available studies and recommendations. The list of 
needed activities is comprehensive, and the extent of work needing to 
be accomplished is long. It is an outstanding list of what can be done 
and what eventually needs to be done. The nation needs to continue 
stepping toward resilience, and the goals objectives and tasks outlined 
in the NEHRP Strategic Plan need to be achieved. The reauthorization of 
the NEHRP program is a mandatory minimum step to maintain the momentum 
that has been developed. Accelerating the pace of achieving the goals 
of that plan will bring many benefits and the value is well documented.

Key areas in need of improvement that are supported by the Federal 
                    Government

    The NEHRP Strategic Plan is recognized as an appropriate plan for 
achieving national resilience. The NRC Road Map is a detailed 
assessment of what needs to be done in the next 20 years to implement 
the plan. As a practicing Structural Engineer and Earthquake 
Professional, I recognize the need for every effort and my clients will 
benefit significantly from the resulting work. From my perspective, 
they are all a part of the following four key areas that must benefit 
from federally supported research if we are to have the knowledge and 
tools to become resilient:

        (1)  Comprehensive worldwide monitoring and data gathering 
        related to earthquake intensity and impact.

          Extensive instrumentation is needed to adequately record the 
        size and characteristics of the energy released and the 
        variation in intensity of strong shaking that affect the built 
        environment. We are lucky if we obtain a handful of records for 
        entire cities but in reality thousands are needed to record the 
        dramatic differences that occur and to understand the damage 
        that results. In addition, the geologic changes that occur due 
        to faulting, landslides, and liquefaction need to be surveyed, 
        recorded, and used to understand the future vulnerability of 
        the built environment to land movement. A network of 
        observation centers is needed to record, catalogue and maintain 
        information related to the impacts on society, and the factors 
        influencing communities' disaster risk and resilience. At 
        present, earthquake engineering is based more on anecdotal 
        observations of damage that are translated into conservative 
        design procedures without the benefit of accurate data about 
        what actually happened. In my mind, expanded monitoring is the 
        single most important area that will reduce the cost of seismic 
        design and mitigation that will allow us to achieve greater 
        resilience.

        (2)  Overarching Framework that defines resilience in terms of 
        Performance Goals

          Resiliency is all about how a community of individuals and 
        their built environment weather the damage, respond and 
        recover. It is more about improvisation and redundancy than 
        about how any single element or system performs. Buildings and 
        systems are designed one structure at a time for the worst 
        conditions they are expected to experience. This approach 
        worked well when life safety was the goal, and there was no 
        need to consider the overall performance of the built 
        environment. Resiliency, however, demands that performance 
        goals and their interdependencies are set at the community 
        level for the classes of structures and systems communities 
        depend during the recovery process.

          Facilities providing essential services during post 
        earthquake response and recovery must function without 
        interruption. Electric power is needed before any other system 
        can be fully restored. Emergency generators can only last a few 
        days without additional deliveries of fuel. Power restoration, 
        however, depends on access for emergency repair crews and their 
        supplies. Community level recovery depends on neighborhoods 
        being restored within a few weeks so the needed workforce is 
        available to restart the local economy. People must be able to 
        shelter in place in their homes, even without utilities, but 
        cannot be expected to stay and work after a few days without 
        basic utility services. To ensure that past and future advances 
        in building, lifelines, urban design, technology, and 
        socioeconomic research result in improved community resilience, 
        a framework for measuring, monitoring and evaluating community 
        resilience is needed. This framework must consider performance 
        at various scales-e.g., building, lifeline, and community-and 
        build on the experience and lessons of past events.

          Only the Federal government can break the stalemate related 
        to setting performance goals that if left alone will eventually 
        cripple the nation.

        (3)  Social Science Research to quantify the role of 
        improvisation and adaptation, how decisions are made at all 
        levels and the need for rehabilitation.

          American cities are an eclectic collection of buildings and 
        lifeline systems built over the life of a city. The vast 
        majority were built before adequate design codes and standards 
        were available to assure the needed durability and performance. 
        Achieving earthquake resilience requires a community-based, 
        holistic approach that includes decisions and actions that are 
        based on overarching goals, a clear understanding of the built 
        environment, rapid and informed assessment data, and planned 
        reconstruction and recovery.

          Communities build based on traditional standards and when 
        affected by major earthquakes respond and recover based on 
        intuition, improvisation, and adaptive behaviors that are drawn 
        from the individuals available to participate. The lessons 
        learned in one community and event rarely translate to the next 
        community affected. In a perfect world, all buildings and 
        systems could be rehabilitated to the needed level to assure 
        resilience. In reality, the majority will not be rehabilitated 
        unless financial incentives are provided. Such incentives are 
        only appropriate and affordable when the subsequent action will 
        contribute to a community's resilience. Only through social 
        science research will the balance between mitigation and 
        response be understood.

        (4)  Performance-Based Earthquake Engineering design tools

          Earthquake engineering is done every day based on the 
        available building codes, design standards, industry best 
        practices and intuition of the nation's earthquake 
        professionals. Engineers traditionally have not been asked to 
        disclose how buildings will perform, only whether or not they 
        ``meet the code''. For most buildings, that means nothing with 
        regard to their safety or usability after a major event.

    For the past decade, engineers have been developing performance-
based standards, but these early efforts are severely limited by 
insufficient data on building performance, insufficient analysis tools 
to predict performance, and inadequate training in the new techniques 
that are under development. New standards that support resiliency are 
needed throughout the seismic regions of the nation and need to be 
included in the development of national design and rehabilitation 
codes. Basic research, extensive full scale testing, applied research 
and implementation programs are needed to make the necessary seismic 
mitigation efforts affordable and cost effective.

Summary

    In conclusion, ASCE supports research, practices and policies that 
identify earthquake hazards and mitigate earthquake risks, including:

        <bullet>  Continuance and expansion of the National Earthquake 
        Hazards Reduction Program (NEHRP) and similar initiatives.

        <bullet>  The use of state-of-the-art performance standards for 
        existing critical, essential, educational and disaster-recovery 
        facilities, such as hospitals, schools and emergency shelters.

        <bullet>  Targeting buildings that are likely to collapse in 
        major earthquakes for mandatory retrofit, reduced occupancy, 
        reconstruction or demolition.

        <bullet>  Improvements of collaborative community preparedness 
        and their related civil infrastructure with vulnerable regions 
        so that they are economically resilient to earthquake hazards.

        <bullet>  Development of nationally accepted consensus-based 
        standards for evaluation and retrofit of existing buildings;

        <bullet>  Development of national seismic standards for new and 
        existing lifelines.

        <bullet>  Improvement of seismic mitigation applications 
        focusing on low cost techniques; and

        <bullet>  Improvement of large risk mitigation programs at 
        organizations, including at state Departments of 
        Transportation, and at utilities.

    Thank you for the opportunity to present our views, I would be 
happy to answer any questions you might have and to provide the 
Committee with further information.

References

        <bullet>  Achieving National Disaster Resilience through Local, 
        Regional, and national Activities. Advisory Committee on 
        Earthquake Hazard Reduction. www.nehrp.gov, February 2010.

        <bullet>  Strategic Plan for the National Earthquake Hazards 
        Reduction Program, Fiscal Years 2009-2013. Interagency 
        Coordinating Committee of NEHRP. www.nehrp.gov. October 2008.

        <bullet>  National Earthquake Resilience: Research, 
        Implementation, and Outreach. National Research Council of the 
        National Academies. www.nap.edu. Prepublication Version.
 Biography for Mr. Chris Poland, Chairman and Chief Executive Officer, 
       Degenkolb Engineers and Chairman, NEHRP Advisory Committee
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Quayle. Thank you, Mr. Poland.
    I now recognize our final witness, Dr. Vicki McConnell, 
Oregon State Geologist and Director, Oregon Department of 
Geology and Mineral Industries, for her testimony.

 STATEMENT OF DR. VICKI McCONNELL, DIRECTOR, OREGON DEPARTMENT 
               OF GEOLOGY AND MINERAL INDUSTRIES

    Dr. McConnell. Thank you, Chair Quayle and Mr. Wu, and I 
really appreciate the opportunity to be able to speak with you 
today, and thank you for this opportunity to comment on the 
state of earthquake risk reduction in the United States to 
discuss the importance of the coordination between federal, 
state and local stakeholders and for emergency preparedness and 
allowing me to recommend improvements to federal programs.
    As stated, my name is Vicki McConnell and I am the Director 
of the Department of Geology and Mineral Industries for Oregon. 
We work in close partnership with several federal programs that 
are focused on earthquake hazards characterization and risk 
reduction. We implement those programs at the state and local 
level.
    I am also representing the Western States Seismic Policy 
Council, whose mission is to develop seismic mitigation 
policies and share information to promote those programs 
intended to reduce earthquake-related losses through 13 western 
states, three U.S. territories and western Canada. This council 
serves as a shining example of FEMA- and USGS-funded programs 
through NEHRP that assist in reducing earthquake risk in the 
United States.
    And even though I am the Oregon State Geologist, I want to 
just remind you as a geologist that earthquakes and the hazards 
caused from earthquakes care little about state or national 
boundaries. You have to really look at the full geologic 
regions and we have to think about national investments in risk 
reduction.
    First and foremost, I want to stress that the return on 
investment made by building resilient communities is 
tremendous. By definition, resilient communities spring back 
and they cost much less. The cost is minimized to get everyone 
back up and running. So my primary recommendation to you is to 
maintain robust federal programs within the National Science 
Foundation, NOAA, NIST, NASA, FEMA and the USGS that address 
earthquake and tsunami hazard research, mitigation and 
preparedness, particularly the cooperative federal-to-state and 
local programs that implement those federal missions and goals.
    It is now estimated that the fatalities in Japan from the 
Tohoku earthquake and tsunami may reach 25,000, and the 
economic damage may reach $300 billion, and as has been stated 
before, our hearts go out to everyone in Japan and our 
condolences for their losses.
    We did not escape unscathed here in the United States, 
though. We had tens of millions of dollars in damage in Hawaii, 
Oregon and California, and we had one fatality, all of that 
from the tsunami from the earthquake. Although it is going to 
take time to assess what has happened in Japan, it is clear 
that Japan's research and development, their technology and 
preparedness saved hundreds of thousands of lives and damages 
that would have gone into more billions from that earthquake, 
something that we need to take a lesson from them.
    And as Mr. Wu summarized, we have very similar geologic and 
seismic areas off the northwest coast of the continental United 
States and the coastline of Alaska. We have in historic times 
witnessed a 9.0 magnitude earthquake on the Cascadia Subduction 
Zone in 1700 as well as the 1964 9.2 magnitude Aleutian-Alaska 
Subduction Zone earthquake. We also now realize that magnitude 
8 and higher earthquakes can occur along these same areas, and 
the reason we know that is because of the NSF and USGS funding 
opportunities for basic earthquake science.
    I want to quickly go through some of the programs that are 
important for what we see: NSF's research at universities to 
understand and monitor earthquakes, the USGS Advanced National 
Seismic Network, our crucial seismic network, the USGS 
Earthquakes Hazards Program, which has external grants that 
bring in local expertise in science and engineering, and the 
NOAA Tsunami Warning Program and the National Tsunami Hazard 
Mitigation Program, which really is our leading edge for 
understanding and mitigating tsunami hazards. Finally, don't 
forget about the NASA fleet of earth-observing satellites and 
their help with these.
    I want to thank you again for this opportunity to comment 
on the Nation's earthquake preparedness and the federal 
programs that assist building resilient communities. I would be 
happy to answer any questions. Thank you.
    [The prepared statement of Dr. McConnell follows:]

Prepared Statement of Dr. Vicki McConnell, Director, Oregon Department 
                   of Geology and Mineral Industries

    My name is Vicki S. McConnell. I am the Director of the Oregon 
Department of Geology and Mineral Industries (DOGAMI), an executive 
branch agency in the State of Oregon. I serve Governor Kitzhaber and 
the state as the Oregon State Geologist. The agency is tasked by 
statute to be the centralized source of geologic and geoscientific data 
and geologic hazard data for the State of Oregon. As such we work in 
close partnership with several federal programs that are focused on 
earthquake hazards characterization and risk reduction. We implement 
those programs at a state and local level. My testimony will focus on 
the state of these programs, how they do or do not accomplish their 
goals of earthquake risk reductions, and recommendations for 
improvement.
    I am also representing the Western States Seismic Policy Council 
(WSSPC) whose mission is to develop seismic mitigation policies and 
share information to promote programs intended to reduce earthquake-
related losses throughout the 13 western states, three U.S.territories, 
a Canadian territory and a Canadian province, and liaisons to seven 
western state seismic safety councils and commissions. WSSPC is a 
501(c)(3) non-profit organization and is funded by the Department of 
Homeland Security's Federal Emergency Management Agency (FEMA) and the 
U.S. Geological Survey (USGS). Headquartered in Sacramento, California, 
members are the State Geological Survey and Emergency Management 
Directors.
    Thank you for this opportunity to comment on the state of 
earthquake risk reduction in the United States, discussing the 
importance of coordination between federal, state, and local 
stakeholders for emergency preparedness, and allowing me to recommend 
improvements to federal programs.
    Although I will be providing examples about how Oregon is working 
toward earthquake risk reduction and identifying and mitigating the 
hazards associated with earthquakes I want to stress that earthquake 
faults, seismic hazards, tsunamis, and seismic-induced landslides care 
little for state or national boundaries. When considering the effects 
of these hazards and how to reduce those effects we must consider the 
geologic regions and think about national investments in risk 
reductions.
    First and foremost, I want to stress that the return on investment 
made by building resilient communities is tremendous; resilient 
communities spring back quickly with rapid economic recovery; with 
infrastructure from schools to roads reoccupied and with the need for 
state and federal assistance minimized. My primary recommendation to 
you is to maintain robust federal programs within the National Science 
Foundation, NOAA, NIST, NASA, FEMA, and the USGS that address 
earthquake and tsunami hazard research, mitigation, and preparedness 
particularly the cooperative federal-to-state and local programs that 
implement the federal missions and goals.
    Some examples of these federal programs include the USGS Earthquake 
Hazard Program, the NIST-administered National Earthquake Hazards 
Reduction Program and the NOAA administered National Tsunami Hazards 
Mitigation Program. These are federal programs that build resilient 
communities and do so through collaboration with experts outside the 
federal government. Through competitive and other grants, federal 
agencies work with scientists, engineers and local-area experts to 
understand the hazard, prepare communities, reduce losses and keep the 
local economy on track after a natural disaster hits.
    We must continue to observe and understand hazards, prepare for 
hazards, mitigate potential losses and respond to hazardous events. 
These long-standing federal programs and partnerships provide the 
foundation for resilient communities. While the events in Japan are 
tragic, the fatalities, injuries and losses could have been orders of 
magnitude worse if not for Japan's attention to research, technology 
and preparedness leading to some of the most resilient communities in 
the world.
    I offer four examples of work being conducted in Oregon that is 
crucial to developing resilient communities. These projects were 
possible because of federal assistance from NEHRP and other programs. 
My written testimony provides references to all four if you would like 
further information.

           Oregon is the first state in the nation to conduct an 
        evaluation of the seismic vulnerability of all public schools 
        and emergency response facilities statewide and to develop a 
        grant program to assist with seismic rehabilitation of the most 
        vulnerable facilities. While these are primarily state funded 
        programs both relied on data and guidance provided by NEHRP. By 
        funding overarching development standards and guidelines, the 
        national program assists the states with developing 
        comprehensive research and science and engineering 
        evaluations.1

           Portland METRO Multi-Hazard Project. Through a collaborative 
        effort of DOGAMI and USGS Earthquake Hazard Program, USGS 
        Landslide Hazard Program, and National Cooperative Geologic 
        Mapping Program a series of hazard maps for the Portland Oregon 
        metro area are being developed. These maps will be used to 
        drive the development of local land use planning and building 
        codes for the Portland urban growth zone. \1\
---------------------------------------------------------------------------
    \1\ To view the final seismic vulnerability report go to: http://
www.oregongeology.org/sub/projects/rvs/default.htm. To view the results 
of the rehabilitation grant programs go to: http://www.oregon.gov/OMD/
OEM/plans--train/SRGP.shtml

            Oregon's Department of Transportation published in 2009 the 
        Seismic Vulnerability of Oregon State Highway Bridges: 
        Mitigation Strategies to Reduce Major Mobility Risks. This 
        study incorporates FEMA HAZUS risk assessment modeling funded 
        by NEHRP as well as NEHRP soil conditions data to determine 
        peak ground acceleration (PGA). Their findings indicate that 
        38% of state-owned bridges in western Oregon would fail or be 
        too heavily damaged to be serviceable after a magnitude 9.0 
        earthquake and that repair or replacement would take 3-5 years 
        essentially cutting the Oregon coastal communities off from the 
---------------------------------------------------------------------------
        rest of the state.

           The Oregon Lidar Consortium is using an excellent modern 
        technology called light detection and ranging (or lidar) to 
        identify and locate faults and related hazards throughout 
        Oregon. Lidar allows us to image the bare earth by removing 
        vegetation, so we can see fault structures, old landslides and 
        other features that define hazards. Lidar was developed through 
        research and development, led primarily by researchers funded 
        through the National Science Foundation and the U.S. Geological 
        Survey. It is now an essential tool for research and for land-
        use planning. See Figure 1 for an example of bare earth lidar 
        imagery of fault scarps or go to: http://www.oregongeology.org/
        sub/projects/olc/default.htm

    It is now estimated that the fatalities in Japan from the Tohoku 
earthquake and tsunami may reach 25,000 and the economic damage may 
reach $300 billion. Across the Pacific Ocean--there was $30 million in 
damage in Hawaii, $7 million in damage in Oregon, and one death and 
more than $50 million in damage in northern California. Most of the 
death and damage in Japan and beyond Japan can be attributed to the 
tsunami. Although it will take more time to assess what has happened in 
Japan, it is clear that Japan's R&D, technology and preparedness saved 
hundreds of thousands of lives and billions of dollars in damages from 
the massive earthquake and also probably from the ensuing massive 
tsunami.
    We have similar geologic and seismic areas off the northwest coast 
of the continental United States and the coastline of Alaska as they do 
off the coast of Japan. The Pacific Plate and other smaller plates are 
subducting beneath the North American Plate and in all three areas 
history has recorded very large magnitude megathrust earthquakes 
followed by massive tsunamis. These include a magnitude \2\ 9.0 
Cascadia Subduction Zone earthquake in northwestern United States in 
1700, a magnitude 9.2 Aleutian-Alaska Subduction Zone earthquake in 
Alaska in 1964, and the recent magnitude 9.0 Tohoku earthquake. 
Additionally, we now realize that these subduction zones are prone to 
magnitude 8.0 and higher earthquakes occurring as frequently as ten 
times the magnitude 9.0 and larger earthquakes. See Figure 2 at the end 
of this testimony for a timeline of Cascadia Subduction Zone 
earthquakes over the last 10,000 years.
---------------------------------------------------------------------------
    \2\ Earthquake magnitudes are expressed in the moment magnitude 
scale.
---------------------------------------------------------------------------
    Are we ready for another Cascadia Subduction Zone earthquake? Or an 
earthquake on the Portland Hills Fault similar to the recent New 
Zealand earthquakes? No we are not; however we have made great strides 
toward understanding and mitigating for such natural disasters through 
state implemented programs funded in partnership with federal agencies 
or that use data gathered by federal agencies.
    Your Subcommittee and the Full Committee can help to ensure that 
the federal programs are there to help the states develop resilient 
communities across the nation. My colleagues here today are explaining 
the excellent work that NIST and FEMA are conducting and I bring your 
attention to several other federal agency programs whose mission is to 
reduce earthquake risk..
    NSF supports research at universities to understand and monitor 
earthquakes and tsunamis. NSF's EarthScope-US Array experiment, which 
has been deploying a network of seismic instruments that are moving 
across the country, has demonstrated how useful a robust national 
seismic network could be. For example, the U.S. Array instruments 
helped to detect several low magnitude seismic swarms in Oregon. While 
not directly hazardous, this previously undetected seismic activity 
indicates areas in the state that need additional hazard 
characterization and research. Unfortunately, most communities cannot 
afford to maintain the U.S. Array instruments so they have been pulled 
out as NSF's experiment moves east. The remaining USGS-supported 
regional seismic network can no longer detect the smaller events that 
would help us understand earthquakes or that might be critical for an 
early warning system for many urban areas throughout the country.
    The USGS 's Advanced National Seismic System (ANSS) is crucial for 
developing earthquake resilience. It includes a backbone network, a 
global information center, a strong ground motion network and 15 
regional networks. When an earthquake strikes, ANSS delivers real-time 
information, providing situational awareness for emergency-response 
personnel. The Pacific Northwest regional array in my area is operated 
jointly by the University of Washington and the University of Oregon. 
USGS support of a national seismic and geodetic network, with 
collaboration from state and university-based regional networks, is 
vital to understand and mitigate the hazards related to earthquakes. 
Without greater support for these networks they may deteriorate, 
leaving us highly vulnerable to earthquake hazards (essentially blind 
to earth movements). We recommend that the USGS work closely with their 
state and local stakeholders to design the information tools and 
seismic hazard maps that are useful to land use planning and emergency 
response.
    The USGS Earthquake Hazards Program is also vital to earthquake 
resiliency. The external Earthquake Grants program, which has 
successfully engaged leading scientists and engineers through a peer-
reviewed grant process brings local expertise to basic and applied 
earthquake research. We recommend that progress to build a prototype 
earthquake early warning system be evaluated and continued. This system 
would warn people within seconds after a major earthquake starts to 
shake the ground, in time for many people to take cover, protect their 
children, and automatically implement electronic safety measures (such 
as opening firehouse doors, slowing trains, and backing up computers). 
Japan already has a functional system in place, but the President's 
budget calls for the United States to stall its efforts. The system 
that we need would surely save lives and facilitate a rapid recovery 
after an earthquake strikes. The Earthquake Hazards Program also needs 
funding to take advantage of new technologies (such as better seismic 
instrumentation, more geodetic measurements, and more use of lidar in 
mapping faults) that are improving our abilities to reduce risks from 
earthquakes.
    The NOAA Tsunami Warning Program and the National Tsunami Hazard 
Mitigation Program in concert with federal earthquake programs and in 
partnerships with state efforts is essential to understanding and 
mitigating tsunami hazards. While we did have death and damage in the 
United States resulting from the Tohoku earthquake and tsunami it would 
have been much, much worse without the federal programs designed to 
track distance tsunami activity, model and calculate the waves' path 
and arrival times, advise and warn state and local communities, and 
most importantly empower communities to prepare and respond. Developing 
resilient communities depends on understanding the social and 
demographic factors that affect how individuals and communities respond 
to natural disasters and to best deliver the message that, ``Yes, you 
can plan for and survive an earthquake or tsunami.'' Oregon has 7 
communities and 3 counties that have been declared ``Tsunami Ready'' 
through NOAA's Tsunami Ready program.
    It is important to require federal programs and their stakeholders 
to coordinate their activities and missions to optimize the investment. 
An example of this coordination is the Advisory Committee on Earthquake 
Hazards Reduction (ACEHR) that guides and advises the many NEHRP 
programs.
    Finally above all of these coordinated activities in R&D and 
technology is the NASA fleet of Earth-observing satellites. These 
satellites provide information about the land, ocean and atmosphere 
before and after an event. DESDyNI, which stands for Deformation, 
Ecosystem Structure and Dynamics of Ice is under development and would 
observe deformation from earthquakes, volcanic eruptions and 
landslides, among other things. It would include InSAR and lidar to 
follow earth movements. It would be helpful to support the development 
of this satellite without too much delay because of budgetary concerns. 
(http://science.nasa.gov/missions/desdyni/)
    Thank you, again, for this opportunity to comment on the Nation's 
Earthquake Preparedness and the federal programs that assist building 
resilient communities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Biography for Dr. Vicki McConnell, Director, Oregon Department of 
                     Geology and Mineral Industries

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Quayle. Thank you, Dr. McConnell, and thank you to 
all the witnesses for their testimony. We are going to enter 
into the question portion of this discussion, and I want to 
remind Members that Committee rules limit questioning to five 
minutes. The Chair will at this point open the round of 
questions, and I recognize myself for five minutes.
    Dr. Hayes, I want to start with you. In your testimony, you 
talked about the importance of collaboration and linkages 
amongst NEHRP partners. There is an interagency coordinating 
committee, an external advisory committee on earthquake hazards 
reduction, and four federal agencies that have responsibility 
for long-term risk reduction; is there any redundancy in these 
efforts or do all agencies play a distinct role in NEHRP?
    Dr. Hayes. That is a good question. In my written 
testimony, I actually posted what has infamously been referred 
to as the wiring diagram for NEHRP. I understand from our 
legislative affairs people that NIST has never used such a 
figure in testimony before but it is a good, graphic 
representation of what NEHRP is and what it does. I don't think 
there is any duplication of effort among the agencies. I think 
that there are complementary activities at the four agencies. 
The National Science Foundation is responsible for basic 
research, but it is also responsible for training the next 
generation of leaders in this area for our country, and that is 
a really, really important part of what they do.
    FEMA, on the other hand, is at the other end of the 
spectrum, if you will, and FEMA is responsible for the 
implementation efforts, and FEMA works very, very closely with 
the national model building code organizations, particularly 
the American Society of Civil Engineers and the International 
Code Council, to get the results of NEHRP research into the 
national model building codes and then get adopted by states 
and localities around the Nation.
    In the middle, USGS plays an extremely important role in 
the whole process with its monitoring program, its hazard 
mapping program, the work that it is now doing in the early, 
early stages of trying to understand how early warning might be 
implemented. It is an extremely valuable part of the process 
that is not duplicated in any other agencies.
    Finally, my agency is responsible for doing applied R&D, if 
you will, to bridge the gap between the basic research done at 
the National Science Foundation and the really applied work 
that is done at FEMA.
    Chairman Quayle. Thank you.
    Mr. Poland, in your testimony you compared the different 
results of the earthquakes that occurred in Haiti and Japan, 
and even what happened in the Northridge quake, and the quake 
that occurred in San Francisco. You mentioned that it would be 
cost-prohibitive to retrofit buildings across the United 
States. What is your suggestion to minimize the repercussions 
of an earthquake? Do you mostly look at where different 
communities lie along faults? For example, a city is close to 
the San Andreas fault, you obviously take different things into 
account than cities in middle America located away from the New 
Madrid fault line.
    Mr. Poland. As I mentioned, the biggest problem we have is 
that the built environment that we have right now in the 
country has not been designed for earthquake effects, both in 
terms of public safety and in terms of being able to recover 
and resiliency. And so the biggest problem we have is, what do 
we do with 85 or 90 percent of our buildings and systems that 
are not adequate for the kind of performance that we want. When 
I spoke about it being cost-prohibitive, I was speaking about 
retrofitting those buildings and those systems so that they can 
perform properly, and that is what costs so much money. The 
most important thing is to not fix or retrofit anything that 
doesn't need to be fixed and not to do it too much. I can say 
that.
    Okay. How do we stop doing it too much? The first thing is 
that the earth science research has to continue to move forward 
to expand our understanding of how strong the ground is going 
to shake, what the damage to the land is going to be and what 
the impact on the buildings is going to be, so that needs to 
continue so that we can better understand where the pockets of 
shaking are going to occur. Right now we consider huge areas 
that are going to shake very hard and in reality when we look 
at the damage and we look at the instrumentation that is 
available, we see that there are pockets of damage that occur 
so there is a whole body that needs to be done there.
    Secondly, it is just the techniques we use to analyze 
buildings and determine how much they need to be retrofitted. 
It is based on anecdotal evidence that we gather from our field 
reconnaissance. We go out and we look at earthquake damage. We 
see broken buildings, don't really know how strong the ground 
was shaking and determine what we need to do to stop that. 
Through full-scale testing and basic research and applied 
research, we can learn and have learned a lot about how to 
improve building performance just enough, and it is this just-
enough idea that will bring the cost down and make it 
affordable.
    Chairman Quayle. You were talking about community 
awareness; since you don't want to do too much, is your goal to 
focus on one specific pocket that will resist a certain level 
of earthquake so that the area can be up and running post 
earthquake and basically prioritizing different pieces of 
infrastructure so that cleanup and repair work can happen in a 
much more efficient manner?
    Mr. Poland. That is correct, and the focusing is really 
around the systems and buildings that are needed for the 
recovery. The buildings that you need during the emergency 
response period need to be running all the time. The big issue 
that we have right now is we recognize that our workforce, the 
neighborhoods need to be restored within a few months in order 
for the economy to come back to life and so the systems that 
support the neighborhoods and the small businesses need to be 
taken care of next, and then the commercial districts and the 
industrial areas need to be taken care of after that, an 
orderly process of doing that, and then, as you said, 
recognizing in the community what areas are inherently safer 
than others, don't shake as hard, and focusing attention in 
those areas is one of the keys.
    Chairman Quayle. Okay. Thank you very much.
    The Chair now recognizes Mr. Wu for five minutes.
    Mr. Wu. Thank you very much, Mr. Chairman.
    Dr. McConnell, you mentioned in your testimony--this is 
really a question for all of the witnesses. You mentioned that 
one study found that up to 38 percent of Oregon's highway 
bridges would fail in the case of a magnitude 9.0 earthquake 
and that it would take potentially five years to repair or 
replace these damaged bridges, and this would leave some 
communities, especially coastal communities, cut off from the 
rest of the state for a number of years. Can you all comment on 
how we are trying to design resiliency into crucial lifelines, 
and as Mr. Poland has said, also work on work-arounds for some 
of these where we cannot design in survivability in the first 
round?
    Dr. McConnell. Chair Quayle and Mr. Wu, I appreciate that 
question and the comment. That particular study was designed 
and taken and carried forth by the Oregon Department of 
Transportation, and they did use the data and information that 
was gleaned from NEHRP whenever they developed their scenarios, 
so that is very important to bring this back around is how are 
we using the information and data that is coming out of NEHRP 
for very practical questions like are the bridges going to be 
there if we have that type of earthquake. It doesn't matter if 
the roads are there if you can't get across the bridge.
    So what I would like to say in answer to your question is, 
in building resiliency, and, as Mr. Poland said, you must 
recognize and prioritize those infrastructure, those buildings, 
those parts of the community that you really need to have there 
both during and immediately after. So yes, it would take us 
three to five years to fix every one of those bridges but not 
every one of those bridges need to be fixed right off. What we 
need to do is recognize where are those priority lifelines and 
particularly the ones to the coast that need those bridges 
fixed, and those are the ones you start. Those are the ones you 
focus on. And we are actually working with--and I say ``we'', 
the State of Oregon, working with the Department of 
Transportation, emergency management, a variety of other 
agencies and working with our federal partners toward 
developing those type of identifying the infrastructure that 
really needs the first look at and to try to fix those first as 
we work through these kind of projects. Because otherwise you 
look at it and you just say this is going to cost so much and 
it is going to take so long, we can't get our arms around it, 
but we absolutely can. You just have to think strategically. 
And it engages everyone, not just the earthquake, not just 
these programs that work on earthquake and work on earthquake 
science but the Department of Transportation. Those types of 
agencies as well need to be incorporated into these 
discussions.
    Mr. Wu. Thank you very much.
    Mr. Poland? Well, it is fine if you have nothing further to 
add.
    Mr. Poland. I have nothing further to add.
    Mr. Wu. Okay. Terrific.
    Dr. Hayes, your agency works on developing some model 
codes, and that applies to buildings, I believe, and also 
potentially to bridges and other structures. Do you want to 
comment on this from the perspective of critical 
infrastructure?
    Dr. Hayes. We don't do work on bridges and those kinds of 
structures. The Federal Highway Administration is primarily 
responsible for that work. We do focus on the building side of 
the problem, if you will. I don't think there is any doubt that 
we have a long way to go to have a completely coordinated 
approach to our lifelines in virtually every major city in the 
United States. That is an area that I think that the advisory 
committee that Mr. Poland chairs, as well as this NRC report 
that he referred to, have mentioned as an area that we really 
need to be looking at as we go into the future. It is an area 
that is not as well established as the buildings area is. There 
is no question about that.
    Mr. Wu. Thank you very much, Dr. Hayes.
    My second question, before my time runs out, is that we do 
have a number of nuclear reactors that are sitting on active 
seismic zones, and I believe one of them is on the West Coast. 
Can you all comment on what can be done to build resiliency and 
recovery into these nuclear facilities? You know, what we found 
in Japan is that it wasn't the earthquake, it was the tsunami 
and the loss of electricity and it affected both the reactor 
itself and the fuel that was stored in pools on top of the 
reactor facility. Can you all comment on how we can do a better 
job with our own nuclear facilities?
    Dr. Hayes. You are looking at me, so I will give you a 
short answer. NEHRP itself does not address the nuclear 
facilities in the United States. That is the responsibility of 
the Nuclear Regulatory Commission and the Department of Energy. 
So we really don't directly get engaged with that. However, we 
have frequent communications with the folks over in Rockville 
at NRC, and in fact, the day before the horrendous earthquake 
in Japan hit, we had a staffer from the NRC briefing the NEHRP 
advisory committee on the activities there. There are many 
interactions that occur between the USGS and the Nuclear 
Regulatory Commission that are tied to examining the ground 
motions and the propagations of those motions following an 
earthquake, so there is interaction there but it is not a 
formal responsibility of the program.
    Mr. Poland. I would just like to add that the design 
process that has been done for nuclear power plants since their 
inception has been extraordinarily rigorous and much more 
detailed and much more carefully done than for any other kind 
of construction by many orders of magnitude. Our facilities, 
our nuclear facilities from a standpoint of strong shaking are 
the safest buildings that we have in the Nation.
    The problem in Japan, as you mentioned, had to do with the 
tsunami, and it wasn't that they didn't think they were going 
to have a tsunami. They had a wall. The wall wasn't tall 
enough. The backup systems didn't work as well as they thought 
that they would. All of that would be factored into the 
programs that we have now just like they are being done, and 
that extra level of redundancy will be added. Our nuclear power 
plants are designed with many, many levels of redundancy, and 
you have to look at what the worst cases are. They do a better 
job of that. Looking at our power plants that are on the West 
Coast, it is my understanding that we are not facing that same 
kind of tsunami issue but it is causing a reevaluation and 
consideration of what is being done. I just wanted to add that 
this is a much higher level of consideration and sophisticated 
design than is done anywhere else.
    Mr. Wu. I may follow up later.
    Chairman Quayle. Thank you.
    The Chair now recognizes the gentleman from Texas, Mr. 
Smith, for five minutes.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman, let me 
thank you and particularly the Full Committee Chairman for 
scheduling such a timely hearing, given what has occurred 
recently in Japan, and let me confess at the outset that my 
first question is directed towards Dr. Hayes and my second 
question is to Mr. Poland, and confess that it is a very 
provincial question, so I hope you will excuse that, and it is 
this. Over the last several weeks, the Texas Advanced Computing 
Center in Austin, which is part of my district, came to the 
assistance of Tokyo's Earthquake Research Institute and other 
scientists in Japan, who reached out to them when Japan's own 
high-performing supercomputers, used to research earthquake 
tremor scenarios and radiation disbursal simulations, were 
knocked offline due to power outages.
    So the question, Dr. Hayes, is this. How much does the 
National Earthquake Hazards Reduction Program, which you 
manage, rely on supercomputing capabilities and how much do you 
invest in supercomputing capabilities for earthquake research?
    Dr. Hayes. I can't give you a quantitative answer because I 
have never actually attempted to gather that specific 
information, but much of the work that is being sponsored by 
the National Science Foundation and by USGS involves the use of 
supercomputers. I would have to find out more specific 
information for you. Obviously where it is appropriate to use 
them, they are being used in the research that is being 
performed.
    Mr. Smith. Okay. Dr. Hayes, thank you.
    Mr. Poland, second question is, does your advisory 
committee find the current level of investment in 
supercomputing adequate, and given the tight budgets, in what 
research areas would you recommend a higher or lower level of 
investment for earthquake research?
    Mr. Poland. Quite honestly, our advisory committee has not 
considered or discussed the investment in supercomputers.
    Mr. Smith. Maybe I am giving you and Dr. Hayes some new 
ideas here today. Do you think you will get to that?
    Mr. Poland. I do believe that we will. I think that 
supercomputing gives us the ability to do community-wide 
simulation and detailed building simulation and simulation of 
systems. They are necessary to do the kind of estimation of 
what the damage is going to be. I think that that level of 
simulation is going to be very necessary for us to move forward 
and figure out what we need to do to make our systems more 
resilient.
    Mr. Smith. Okay. Now, let me know what additional research 
you do on that subject, if you would.
    Last question is this. It has to do with the budget. And 
let me ask each of the panelists if they would to give a very, 
very quick response. You don't necessarily have to limit it to 
good or bad, but be as brief as you can.
    In the fiscal year 2012 budget request currently before 
Congress, the President's Office of Management and Budget 
canceled NASA's Deformation, Ecosystem Structure and Dynamics 
of Ice satellite mission, which would monitor for and 
anticipate earthquakes, volcanoes, landslides, glacial ice 
sheet changes and other practical applications, in favor of 
other NASA satellite missions to monitor greenhouse gases. How 
will that cancellation affect earthquake research? And Dr. 
Hayes, let us just go down real quickly, if you could.
    Dr. Hayes. Sir, I will have to find out more information 
for you on that. Since NASA is not a part of the NEHRP program, 
we don't directly deal with that. We were known of that 
cancellation. Actually it was made aware to the advisory 
committee about three weeks ago, and----
    Mr. Smith. Maybe I should make it easy for you. Can the 
cancellation be good? I mean, there is some common sense 
involved here too.
    Dr. Hayes. Well, I don't mean to be evasive but I am a 
structural engineer like Mr. Poland is, and so I don't know a 
good answer to that question. I will be glad to find out for 
you.
    Mr. Smith. We will go to Mr. Mullen then. Thank you.
    Mr. Mullen. Sir, I can only say that I am a consumer of 
research. It is best if I don't try to produce too much. Any 
information I get, I will be happy to use as an emergency 
manager.
    Mr. Smith. Mr. Poland?
    Mr. Poland. As I mentioned, one of the biggest 
uncertainties we have is when and where and how strong the 
earthquakes are going to occur. We are looking forward to the 
day when we have clear information. There is reason to believe 
that satellite observation is going to give us some of that 
information. That is a hope. In that sense, it is important. 
How much will it affect our work today? Not very much.
    Mr. Smith. Thank you.
    And Dr. McConnell?
    Dr. McConnell. Thank you. The satellite you mentioned here 
with the acronym DESDynI is of great interest to looking at 
building baseline topographic information for areas that may be 
vulnerable to earthquakes, volcano hazards, etc. You can then--
because what you are looking at both InSAR and LIDAR, which are 
acronyms for types of digital imaging, is are there changes, 
are there subtle changes in the topography that may be 
indicating that we have stresses building up or that we have 
inflation occurring in volcanic areas. These are things we are 
very sensitive to when we are doing hazards monitoring, and 
this particular satellite would be of great interest to 
broadening our monitoring capabilities and looking at what we 
call interferometry.
    Mr. Smith. Good to hear. Thank you, Dr. McConnell.
    Thank you, Mr. Chairman.
    Chairman Quayle. Thank you, Mr. Smith. Before I recognize 
our next questioner, I just wanted to let everybody know that 
there actually has been another earthquake off the east coast 
of Japan just an hour and a half ago, magnitude about 7.5. We 
have just been notified. So our thoughts and prayers are 
definitely with the people of Japan right now.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Sarbanes, for five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you to the 
panel.
    If all of the measures you would like to see put in place 
with resiliency and preparation and recovery and so forth 
represent, say, 100 on a scale of 1 to 100, where would you say 
we are on that scale as a Nation right now? Anybody want to try 
to quantify that?
    Mr. Poland. One to 100. We are talking about here with the 
federal investment involved in developing tools and knowledge 
and implementation programs. I would think we are down in the 
25 range. We have a fair set of tools that are expensive to 
use. We have a set of implementation programs that would help 
states and regions become more resilient but they are not 
really being implemented right now and so we are really at a 
very low level.
    Mr. Sarbanes. So we are in the 20s out of 100 in terms of 
investing our attention and resources to the problem, but in 
terms of our preparedness as a Nation, according to the 
standards you would set to be enough prepared for the kinds of 
scenarios that you model, where are we on that scale from 1 to 
100?
    Mr. Poland. I guess they are going to let me talk. I would 
say it is even lower, maybe 10.
    Mr. Sarbanes. Okay.
    Mr. Poland. Let me just say quickly that in areas of very 
high seismicity in California, Oregon and Washington, there 
have been building codes in place for 20 years that are going 
to help people be safe. Other parts of the country that we talk 
about, those things are not in place.
    Mr. Sarbanes. Well, that was the next question I wanted to 
ask you. I assume that the West Coast would be higher on the 
scale than other places, so California, where would you put 
that?
    Mr. Poland. From a scale of safety, I believe that 
California will maybe 50 or 60. On a scale of resilience to be 
able to recover quickly and not have a significant impact on 
the national economy, we are still down in the 10-20 range.
    Mr. Sarbanes. Okay. Humans are notoriously shortsighted 
about everything, and even with the earthquake activity of 
recent days, we will get back to being shortsighted even on 
this question, and I wonder if you could speak to--I mean, I 
would imagine if you went to any budget hearing at a local 
level, at a city, municipality level or at the state level if 
earthquake preparation and resiliency was even on the budget 
document, it would be on the last page on the last line because 
there are so many other things obviously that are pulling on 
our resources and our attention. So it makes me wonder how 
much--and I think you have spoken to this a little bit, but the 
opportunity to piggyback the kinds of things you want to see 
done onto other kinds of initiatives that are out there that 
have greater priority in the minds of planners and budgeters 
and all the rest of it so that you can kind of come along with 
a little bit, of leverage and not so much add a cost, say, 
well, as long as you are doing X, Y and Z, why not add this 
into the mix, and that can go to codes and building standards 
and so forth. But it also could go particularly well with 
community resiliency planning, and I wonder if you could speak 
to that and maybe throw in whether sort of green building codes 
and sustainable building codes are ones where there can be some 
added elements with respect to resiliency and so forth. Thank 
you.
    Mr. Mullen. Sir, let me try to help with some of that. I 
will tell you that on the West Coast, there are significant 
discussions taking place in local communities about earthquakes 
and tsunami threats and measures that should be taken. One of 
the things we haven't really talked about is the importance of 
the general public understanding not only the risk they face 
but the measures they can take to protect themselves. I am very 
enthusiastic about getting a warning about something that might 
be coming like the tsunami warning we got a few weeks ago 
really helped us but the type of events, the no-notice events 
that we would deal with in the central Puget Sound or in Oregon 
or on the coast, they are not going to get a lot of warning for 
an earthquake. One of the things that we need to do is make 
sure people are prepared to take the protective steps that they 
need immediately. They need to be able to drop cover and hold. 
They need to know that they have got--that they need to have 
some resources for themselves. And on the coast, we have been 
working hard with the communities about their evacuation 
programs, knowing what it means to move quickly. The ground 
motion in an earthquake that is right off our coast is your 
signal. We also have an elaborate system of warning systems 
that we can activate to tell people to move to high ground.
    The difficulty we have, the challenge that communities have 
as they prepare with us and they have worked with us is there 
is not a vertical evacuation site that is necessarily readily 
available to every community, and so we have been trying to 
plan for the type of vertical evacuation structure that would 
be necessary on the coast in the Port of Los Angeles or Long 
Beach or Ilwaco where those folks can get to a place of safety 
which may not be the warmest, driest place but it will at least 
be above any kind of potential wave. That is an important step. 
There is no such structure right now but the communities are 
planning with it.
    I think the key to this whole thing that you are getting at 
in terms of where people are, and I would not hazard a guess 
about the scale because I would just be making something up. I 
will tell you if you educate people about the risks that they 
face and you level with people about what they can do to 
protect themselves and their families, whether it is the 
average citizen, someone running a business or the emergency 
management community or the local elected officials, you begin 
to generate the kind of interest that will get people looking 
at this as another issue that they have to deal with and move 
it up on that committee agenda. The national-level exercise I 
spoke of in my testimony is an attempt in the Midwest, in eight 
Midwestern states to begin to educate people at the same time 
that we are determining whether our doctrines and plans are 
going to work for us or not. That will be an extremely 
challenging exercise. We expect failure to occur because we 
want to find out what our condition is. So we are very eager to 
find out where we are weak, where we have got strengths and 
make sure we capitalize on the strengths and shore up the 
weaknesses.
    Chairman Quayle. Thank you very much.
    The Chair now recognizes the Chairman of the Full 
Committee, the gentleman from Texas, Mr. Hall.
    Chairman Hall. Thank you, Mr. Chairman. I thank you for 
inviting a very capable group of witnesses here, and don't 
judge our interest or our appreciation of you by empty seats 
here because it is kind of a desperate time up here. Right now 
we are all looking for a bus ticket home or how long we are 
going to have to stay here. But in this day and time with the 
hurricane, the tsunami, the earthquake and other vicissitudes 
of nature, your testimony is very timely and very important to 
us, and we have probably the hardest working man in the entire 
hearing room that sits to my left here, and he is taking down 
everything that is said, and all these Members will be given 
copies of your answers, and you are not in vain when you are 
talking to our very capable Chairman and Ranking Member and a 
few of us here. So I thank you for that. That is all I really 
want to say.
    We had a hearing some 15 years ago on asteroids, and with 
the thought in mind of getting everybody in the world to work 
together to determine whether or not--and I learned at that 
hearing something that I didn't know then and hadn't even heard 
of it. An asteroid had just passed Earth and by their 
testimony, only missed us by about 15 minutes sometime in the 
1980s. And those are things that people like you live with 
every day and know about that we don't know about, and we cast 
our legislation based on the testimony of folks like you that 
are kind enough to prepared yourself, leave your offices, come 
here and give us your testimony, and I thank this good Chairman 
and Mr. Wu for gathering such a good group here and asking 
proper questions, and I yield back my time.
    Thank you, Mr. Chairman.
    Chairman Quayle. Thank you, and the Chair now recognizes 
the gentleman from Tennessee, Mr. Fleischmann, for five 
minutes.
    Mr. Fleischmann. Thank you, Mr. Chairman and Mr. Wu. This 
is a particularly pertinent Subcommittee hearing and topic, and 
I appreciate the opportunity to participate.
    And also Chairman Hall, I want to thank you. I am one of 
those freshmen to the witnesses, and it has been a great 
privilege. I serve on three committees and I represent the Oak 
Ridge area, so I have got the lab and Y12, but the hearings 
that we have been having in Science, Space, and Technology and 
the tremendous leadership from Chairman Hall and I think 
bipartisan cooperation has been outstanding on these issues, so 
I thank you for being here.
    Our thoughts and prayers go out to the people of Japan. I 
was unaware of the additional earthquake Mr. Chairman. I am 
very sorry to hear that.
    I have some questions. I think I will start with Dr. Hayes, 
if I may. Dr. Hayes, what is NEHRP's relationships with other 
countries, and what are other countries federal earthquake 
research and development programs? How are they different or 
similar to ours?
    Dr. Hayes. I don't know that there is another country that 
does it quite the way we do it. I think that that is largely 
because different governments are organized in different ways. 
But we really have many international partnerships within the 
National Earthquake Hazard Reduction Program. Probably right at 
the moment, what would be most of interest to all of you all is 
the fact that we work very closely with the Japanese. There are 
two bilateral committees or panels that are involved with 
earthquake-related issues between the United States and Japan. 
One is in the seismological area. It is called, the basic title 
of it is Earthquake Research, and the other is in the 
engineering area, wind and seismic effects. We are in close 
contact with the Japanese. My counterparts on the Japanese part 
of the committee that I co-chair for the United States and I 
have been in frequent contact for the last several weeks since 
the earthquake hit there. We fully anticipate that we will be 
going over there once things have passed into a study stage 
from where they are now still response and recovery and the 
radiation issues are resolved. We will be working closely with 
them.
    The National Science Foundation works very closely with 
their Japanese counterparts. The world's largest experimental 
facility, what we call a shaking table that you can build 
models on and actually subject them to earthquake effects is 
just outside of Kobe, Japan, between Kobe and Kyoto, and we 
actually have cooperative projects where U.S. funded projects 
are placed on that shaking table and U.S. and Japanese 
researchers work literally side by side on those projects and 
we typically meet every September to review the kinds of 
technical issues that are being performed. At the moment, there 
is a group from the American Society of Civil Engineers with 
one person from NIST in New Zealand examining some of the 
damage that occurred in the Christchurch earthquake a few weeks 
ago as well.
    USGS has far more bilateral arrangements of that kind 
because the ground issues are the same no matter what national 
border is in place whereas the built environment can depend 
greatly upon the society in which you are examining the issues 
and so USGS does a lot more with the other countries than the 
rest of us, but we work with many other countries all the time.
    Mr. Fleischmann. Thank you, sir. I appreciate that.
    Dr. McConnell, how, if at all, do the costs of preparing 
for earthquakes diminish as you become more prepared? Once a 
community reaches a certain level of preparation, can its 
annual investment be reduced? And how do you measure a 
community's level of resilience?
    Dr. McConnell. Well, I guess I will tackle that last one 
first as I am not sure that we have an ability to quantify how 
you measure a community's level of resilience. What we would 
look at--what we would really look at is, have they met certain 
goals depending on what their hazard is that they are looking 
at, and I will use an example of coastal communities that 
have--on the Oregon coast that have both the earthquake hazard 
from the Cascadia Subduction Zone and impending tsunami, both a 
local tsunami and distant tsunamis as we see that they had to 
deal with after the Tohoku earthquake.
    So as you invest in your infrastructure and your built 
environment based on good earthquake research and tsunami 
research, where are the areas that are in the inundation zones, 
where are your building codes and where is your land-use 
decision making, as you build up that infrastructure in the 
built infrastructure, what you really need to shift your work 
on and that we are realizing is, as Mr. Mullen said earlier, is 
on the outreach and the education because the demographics of 
our communities aren't that everyone is there, that they have 
seen everything that has happened, that their grandparents live 
in the same community that they live in and that this kind of a 
level of awareness is ingrained in the communities. So yes, you 
would invest less in your infrastructure and you would begin to 
invest more in continuing that education and outreach so that 
you stay resilient.
    Mr. Fleischmann. Thank you.
    Chairman Quayle. Thank you, Mr. Fleischmann.
    The Chair now recognizes Mr. Wu for a quick follow-up.
    Mr. Wu. Thank you very much, and with that request for a 
quick follow-up and the good example of the Full Committee's 
Chair, I will submit a question about codes for the record and 
ask the witnesses to respond.
    Just a quick follow-up on the nuclear power issue. The 
reactors that we have at San Onofre and Diablo Canyon and I 
believe at Hanford are all pressure reactors and require 
electricity to circulate water through them, and I realize now 
that this is an NRC issue but there is significant contact. 
There is a different model for reactors, and I believe that 
Oregon State University has been working on this for quite some 
time and also a couple of other research centers, and this is a 
passive circulation system that doesn't require electricity, 
and I know that you all are not experts in this field but in 
terms of resiliency and the conversations about resiliency that 
we have had, if you all care to address this, and if not, we 
will forward this question on to someone else. If you would 
care to address this, I would assume that these smaller 
reactors that are very similar to the reactors that are in 
nuclear-powered ships and submarines, that a passive 
circulation system that does not require electrical power to 
circulate the coolants, that would be an inherently more 
resilient system, especially if they can be distributed in, 
say, five reactors rather than one highly powered, high-
pressure reactor. That is the question.
    Dr. Hayes. What I would like to offer is to pass the 
question to my counterparts at NRC and get a well-informed 
answer for you. Anything I would say would be strictly 
speculative. But I will be happy to try to help with answering 
the question by doing that.
    Mr. Wu. That is absolutely terrific, and Mr. Chairman, I 
think--well, I am not going to go there about Committee 
jurisdiction. But I find that answer very helpful. Thank you 
very much.
    Chairman Quayle. Thank you.
    And I want to thank the witnesses for their valuable time 
and testimony and the Members for their questions. The Members 
of the Subcommittee may have additional questions for the 
witnesses, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments and statements from Members. The witnesses are 
excused.
    Thank you all for coming. The hearing is now adjourned.
    [Whereupon, at 11:12 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Jack Hayes, Director, National Earthquake Hazards
ReductionProgram, NIST 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by Jim Mullen, President of the National Emergency
Management Association (NEMA)

Questions submitted by Representative Ben Quayle

Q1.  In your opinion, what areas of directed research are the most cost 
effective to pursue in reducing earthquake vulnerabilities? Are there 
areas of research and development that have not been focused on, but 
should be, to result in cost savings?

A1. As emergency managers, we benefit greatly from the research 
produced by groups such as those funded by NEHRP. Reference 
publications are published based on NEHRP research and utilized by 
states to provide practical information and guidance for earthquake 
mitigation. Some recent examples which have been of assistance to 
states include Techniques for Seismic Rehabilitation of Existing 
Building (FEMA 547) and Seismic Considerations for Steel Storage Racks 
Located in Areas Accessible to the Public (FEMA 460). These documents 
are made available to public, private, and non-governmental 
organizations to provide specific information earthquake design and 
mitigation. The documents are distributed whenever the state conducts 
training on earthquake mitigation.
    NEHRP participation in post-earthquake building and infrastructure 
investigations, like those conducted for the recent Japan, New Zealand, 
Chile, and Haiti earthquakes, provide valuable information on the 
performance of facilities in earthquakes. The findings from these 
investigations are used to inform U.S.building code revisions, building 
practices, and earthquake mitigation procedures.

Questions submitted by Representative Randy Neugebauer

Q1.  What do you see as the United States' greatest flaw in its current 
earthquake hazard reduction strategies, and what can be done to address 
that? How much would improving the strategy rely on additional federal 
funding?

A1. The greatest flaw in the current earthquake reduction strategy is a 
lack of integrated hazard reduction measures across the suite of FEMA 
programs and divisions. By implementing hazard reduction programs 
within a single division, FEMA has not leveraged the unique work done 
in the other parts of the agency in order to build capabilities for 
earthquake mitigation, preparedness, response, and recovery.
    NEHRP activities carried out by FEMA are housed within the 
Mitigation Directorate but should also incorporate preparedness, 
response, and recovery aspects as well-which would help approach hazard 
reduction in a holistic way. Better integration of earthquake hazard 
reduction programs into the other areas of the agency would leverage 
the resources already at their disposal, allowing the agency to 
accomplish more with limited funds.
    When programs operate independently of one another, efforts may be 
duplicated which wastes precious federal, state, and local money. In 
addition, risk reduction measures can often be implemented with many 
different types of hazards in mind. By understanding the connection 
between a bridge built to withstand an earthquake, and a bridge built 
to withstand a bomb blast, limited mitigation and preparedness dollars 
can be spent efficiently and effectively.
    In 2009, NEMA wrote a white paper with numerous other stakeholders, 
including FEMA, and the paper articulated suggestions for necessary 
elements of a mitigation strategy. ``If the discussion of mitigation of 
future loss was embedded in a wider variety or policy and public choice 
discussions, then decisions that inadvertently increase risk would 
either be avoided or, at least, acknowledged in an open and transparent 
dialogue. (For example, an opportunity would have been a requirement to 
include hazard mitigation measures, or at least their consideration, in 
the project guidance for the Infrastructure Investment Act of 2009).''

Questions submitted by Representative Chip Cravaack

Q1.  The United States is in the middle of a financial crisis. In the 
coming months, Congress is going to have to make some very hard 
decisions about the priorities of this nation. Why should Congress 
consider the National Earthquake Hazards Reduction Program a priority 
and what are some recent accomplishments of this agency that justifies 
the millions of dollars that Congress has invested in this program?

A1. By funding the National Earthquake Hazard Reduction Program 
(NEHRP), Congress has the opportunity to invest in the safety and 
security of vulnerable communities. NEHRP has provided the resources 
and leadership leading to significant advances in understanding the 
risk earthquakes pose and the best ways to counter them. Through NEHRP, 
the federal government has engaged in seismic monitoring, mapping, 
research, testing, engineering and related reference materials for code 
development, mitigation, and emergency preparedness. NEHRP has served 
as the backbone for protecting U.S. citizens, their property, and the 
national economy from the devastating effects of large earthquakes. 
Although NEHRP is well known for research programs, it is also the 
source for hundreds of new technologies, maps, design techniques, and 
standards that are used by design professionals every day to mitigate 
risks and save lives, protect property, and reduce adverse economic 
impacts.
    Each state approaches public outreach and education campaigns 
differently, relying on proven techniques which communicate best with 
their constituents. The State of Alaska, for example, has benefited 
from NEHRP and the corresponding NETAP (National Earthquake Technical 
Assistance Program) in the following ways:

        <bullet>  NEHERP state assistance is currently being used to 
        develop and install earthquake safety education kiosks in three 
        communities where there were fatalities in the 1964 Great 
        Alaskan Earthquake. The kiosks will present 1964 survivor 
        interviews, earthquake science information and safety 
        instruction. These kiosks target residents and the large 
        tourist populations which visit the State every year and 
        include practical life saving information on earthquakes.

        <bullet>  NETAP provided qualified instructors for the hospital 
        seismic mitigation course that was attended by facility leaders 
        from both the private non-profit and for-profit hospitals in 
        the South-central Alaska area.

        <bullet>  NEHERP assistance to state's program provided funding 
        to complete an active earthquake fault database for the State 
        which coordinates with the USGS fault database and provides 
        fault location information for builders and infrastructure 
        planners as well as the general public.

    In Washington State, NEHRP funding has been instrumental in the 
conduct of a pilot project to assess seismic vulnerability of school 
buildings in two local jurisdictions which may prompt more widespread 
attention by school districts across the state, using the methodology 
in the pilot. NEHRP funds are also being used to assess critical 
interdependencies as part of the Resilient Washington initiative.
    As mentioned before, each state approaches earthquake risk 
reduction in a unique way, and the NEHRP website contains many success 
stories to illustrate their work.

Q2.  Looking forward, I expect all federal agencies to do more with 
less. This is simply the fiscal reality. Can all of you talk about ways 
that NEHRP can be reformed so it can work more efficiently and still 
accomplish its core mission?

A2. NEHRP activities carried out by FEMA are housed within the 
Mitigation Directorate ofthe agency but should also incorporate 
preparedness, response, and recovery aspects as well which would help 
approach hazard reduction holistically. Better integration of 
earthquake hazard reduction programs into the other areas of the agency 
would leverage the resources already at their disposal allowing the 
agency to do more with their limited funds. This integration already 
occurs at the state and local levels where earthquake programs and 
initiatives are coordinated across division lines often incorporating 
multiple areas of the agency to fully accomplish mission assignments.
    When programs operate independently of each other, efforts can be 
duplicated, wasting precious federal, state, and local money. In 
addition, risk reduction measures can often be implemented with many 
different types of hazards in mind. By understanding the connection 
between a bridge built to withstand an earthquake, and a bridge built 
to withstand a bomb blast, limited mitigation and preparedness dollars 
can be spent efficiently and effectively.
    In 2009, NEMA wrote a white paper with numerous other stakeholders, 
including FEMA, and the paper articulated suggestions for necessary 
elements of a mitigation strategy. ``If the discussion of mitigation of 
future loss was embedded in a wider variety or policy and public choice 
discussions, then decisions that inadvertently increase risk would 
either be avoided or, at least, acknowledged in an open and transparent 
dialogue. (For example, on opportunity would have been a requirement to 
include hazard mitigation measures, or at least their consideration, in 
the project guidance for the Infrastructure Investment Act of 2009).'' 
By embedding mitigation across the spectrum of disaster related 
activities, duplication of effort and funding can be avoided.

Q3.  Can you speak to the interactions that NEHRP has with local 
governments? What types ofinformation does NEHRP share with local 
entities and how is this information communicated?

A3. NEMA specifically represents the state emergency management 
directors of all 50 states, Territories, and the District of Columbia. 
Therefore, while NEMA works closely with our local counterparts, it 
would be imprudent for us to comment specifically on the relationship 
between NEHRP and local governments.

Q4.  There is a great deal of expense that the federal government must 
endure when a natural disaster such as an earthquake occurs. Can you 
discuss the costs and benefits of hazard mitigation spending?

A4. To quantify the effectiveness of mitigation projects, Congress 
commissioned two studies. One study, conducted by the National 
Institute of Building Sciences in 2005, reported for every $1 spent on 
various mitigation activities, $4 in response and recovery costs are 
saved.
    In September 2007, the Congressional Budget Office evaluated the 
Predisaster Mitigation Grant Program (PDM) in a report titled 
``Potential Cost Savings from the Pre-Disaster Mitigation Program.'' In 
the report, compiled disaster data suggests that for every $1 spent on 
mitigation projects, losses from future disasters are reduced by $3. As 
the years pass, the return on investment grows since development in 
risky locations continues. While comprehensive studies remain valuable 
and very effective in accurately analyzing facts and figures, the 
success of mitigation projects are often best seen in pictures of 
property improvements, and in personal stories of community survival. 
NEMA has worked with States to compile success stories of mitigation 
projects completed to address many different types of hazards, from 
flooding to ice storms and these examples exist in every state and 
their benefits can be seen after each disaster.
    The value placed on hazard mitigation projects differ from state to 
state, and are certainly considered more vital in areas of the country 
where disaster relief dominates state and local spending; but the 
understanding that prevention is more effective and responsible than 
reacting after a catastrophic event is universal. To realize cost 
saving as budgets become more constrained contributing to mitigation 
grant programs are wise investments for state and local officials.
    Although natural disasters receive the most news coverage when they 
create the significant damage, successful mitigation projects by 
definition create non-events. The value of mitigation funds are judged 
by what does not happen, rather than what did. While comprehensive 
estimated cost-benefit examples are important figures to consider when 
deciding the relevance and effectiveness of mitigation programs, more 
telling are the dramatic real life stories of mitigation projects 
fulfilling their purpose and truly changing how States and localities 
are affected by disaster.

Responses by Mr. Chris Poland Chris Poland, Chairman and Chief 
        Executive Officer, Degenkolb Engineers and Chairman, NEHRP 
        Advisory Committee 

Questions submitted by Representative Ben Quayle

Q1.  Looking forward, what are your thoughts on the reauthorization 
legislation of the National Earthquake Hazard Reduction Program being 
coupled with the National Windstorm Impact Reduction Program.

A1. I support reauthorization legislation that couples NEHRP with NWIRP 
as was done during the last session in HR 3820. While the technical 
issues related to mitigating the effect of earthquakes and wind are 
quite different, the programs needed to define pre-event mitigation, 
response and recovery activities are quite similar. The two programs 
will benefit from independent advisory committees of professionals 
expert in the respective hazards. At the same time, oversight of both 
programs by a common Interagency Coordinating Committee is needed to 
avoid duplication and the development of inconsistent practices. Both 
programs need to carry sufficient authorization levels to carry out 
their activities at a much faster pace than currently funded.

Q2.  In your opinion, what areas of directed research are the most cost 
effective to pursue in reducing earthquake vulnerabilities. Are there 
areas of research and development that have not been focused on, but 
should be, to result in cost savings?

A2. The NEHRP Strategic Plan and the recently published NRC Report 
outline the work that needs to be done. Among those recommendations, I 
believe that the following three areas of directed research will be the 
most cost effective in the long run.

        (a)  Development of a set of nationally applicable performance 
        goals for buildings and lifeline systems that support 
        resilience at all levels. Quantification of the role of 
        improvisation and adaptive behavior is needed to understand how 
        badly a community can be damaged and still recover quickly 
        enough to maintain its cultural and economic viability. That 
        should be the basis of the minimum standards for all 
        construction. Up to now, these performance goals have been set 
        by engineers focused on life safety, one building at a time, 
        and defined in a non-transparent manner. Resilience must be 
        approach from a community basis, involve all related 
        stakeholders and perspectives, and remain transparent 
        throughout.

        (b)  Development of national design guidelines for all lifeline 
        systems that deliver the specific and transparent performance 
        standards established for national resilience. Damaged regions 
        cannot begin significant recovery until transportation routes 
        for repair crews and are open, electric power, fuel and water 
        are available, and waste water handling systems are 
        operational. At present there is no overarching performance 
        standard available or even agreement on what the restoration 
        timeframes and priorities should be.

        (c)  Development of affordable and enforceable standards for 
        the rehabilitation of existing buildings and lifeline systems. 
        Most of the research to date has focused on the development 
        design standards for new construction. That's good, but the 
        vast majority of the infrastructure is already in place and not 
        due for replacement for decades. The needed systematic upgrade 
        of the in-place construction to the resilience level will only 
        occur when the cost is significantly reduced and enforceable, 
        mandatory programs are developed.

Responses by Dr. Vicki McConnell, Director, Oregon Department of 
        Geology and Mineral Industries

Questions submitted by Representative Ben Quayle

Q1.  Looking forward, what are your thoughts on the reauthorization 
legislation of the National Earthquake Hazards Reduction Program being 
coupled with the National Windstorm Impact Reduction Program?

A1. I can see the applicability of including the two natural hazard 
reduction programs under the umbrella of one act whose mission is to 
reduce impacts of natural hazards. There may be overlap in certain 
agency charges regarding both hazards (e.g., in NIST and NSF charges) 
and it is possible that some of the basic research in developing tools 
to assess vulnerability and communicate risks may be applied to 
multiple hazards. I have concerns about the dilution of efforts and 
funding to characterize, monitor, and mitigate for very different 
hazards if the two acts become more entwined. We do not monitor for 
wind storms like we monitor for earthquakes, nor does the basic or 
applied research for these hazards have much in common. The benefits to 
hazard mitigation reduction of both programs could be impacted.

Q2.  In your opinion, what areas of directed research are the most cost 
effective to pursue in reducing earthquake vulnerabilities. Are there 
areas of research and development that have not been focused on, but 
should be, to result in cost savings?

A2. In my opinion, basic research into understanding earthquake 
processes and applied research into identifying and characterizing 
earthquake hazards returns high value for the investment. It is 
critical to understand and quantify the problem before you begin 
designing for or mitigating to reduce vulnerability. Investment in 
basic research that develops models and tools to assess vulnerability 
and risk from multiple hazards would also assist states in implementing 
mitigation and local land use decision making thus helping to build 
resilient communities. For example, presently we cannot compare the 
relative risk a community faces between earthquakes, floods, volcanoes, 
or other natural hazards making it difficult for communities to develop 
reasonable response and recovery plans that are comprehensive.

Questions submitted by Representative Chip Cravaack

Q1.  The United States is in the middle of a fiscal crisis. In the 
coming months, Congress is going to have to make some very hard 
decisions about the priorities of this nation. Why should Congress 
consider the National Earthquake Hazards Reduction Program a priority 
and what are some recent accomplishments of this agency that justifies 
the millions of dollars that Congress has invested in this program?

A1. This program should be considered a priority because the products 
from the four agencies that are tasked with implementing the program 
reduce the national vulnerability to potentially catastrophic 
earthquakes, and in the long run save the nation money. The program 
funds research into understanding the hazard (NSF and USGS), assessing 
the vulnerability (NSF and FEMA), monitoring (USGS), determining the 
risk, and developing standards and methods to reduce that risk (NIST). 
This targeted approach allows full consideration of how to mitigate the 
hazard, and through cooperation with state and local experts actually, 
reduces the risk. Too often federally funded programs only address one 
or two aspects of natural hazard risk reduction, such as only basic 
research, but that will not get the nation to resiliency.
    I offer two examples of recent work toward earthquake risk 
reduction to which NEHRP funding has contributed. Both examples 
incorporate and study the effect of the multiple hazards that an 
earthquake can cause over space and time, and both examples show how 
coordination and cooperation spanning federal, state, and local 
agencies and the private sector can leverage the greatest benefit for 
cost of informing and educating our citizens, and building strong 
communities. First is the Great Southern California Shakeout earthquake 
drill that was first activated in 2008. Through the USGS Earthquake 
Hazards Program and NEHRP funding, the USGS Multi-Hazards Demonstration 
Project developed the most likely earthquake scenario for southern 
California. In cooperation with NSF, FEMA, and a host of state, local 
and private sector co-sponsors the scenario became the basis of full 
response earthquake drill. The results from such activities help 
identify gaps in the ability to respond and recover from a natural 
hazard, thus helping communities understand if they are facing a 
disaster or a catastrophe. The full drill is now in its third year of 
activity, and the concept has been expanded to the central U.S. and the 
Madrid Fault Zone. I refer you to the data and information-rich website 
if you are interested in reviewing the many publications and outreach 
products of this project: http://www.shakeout.org/.
    In the Pacific Northwest, the USGS Earthquake Hazard Program and 
state and local agencies have taken a slightly different tack to 
accomplish similar goals of understanding and developing mitigation 
tools to reduce the risk of the multiple hazards posed by an earthquake 
in the Portland Oregon and Seattle Washington metropolitan areas. Here, 
scientists are using state-of-the-science high resolution lidar data to 
identify and locate earthquake fault scarps and landslides. That 
information is combined with comprehensive bedrock and surface geologic 
mapping to develop digital spatial maps of the potential hazard zones. 
Lidar data and susceptibility maps are being developed that will 
indicate areas in communities that are vulnerable to earthquake-induced 
landslides, liquefaction, and ground acceleration. Understanding the 
extent of the hazard, and identifying the vulnerable areas will allow 
for risk reduction through better land use planning, emergency response 
plans, and recovery strategies.

Q2.  Looking forward, I expect all federal agencies to do more with 
less. This is simply the fiscal reality. Can all of you talk about the 
ways NEHRP can be reformed so it can work more efficiently and still 
accomplish its core mission?

A2. I commend the original concept for implementing NEHRP by 
incorporating the purpose and goals of the program into the already 
existing agencies that were conducting similar work, instead of 
creating yet another federal agency silo. Improvements and streamlining 
can always be made to increase efficiency, and certainly all four 
agencies should look closely at their missions and charges, and reduce 
or eliminate overlaps and redundancies. I refer you to the recently 
published National Research Council's evaluation of the NEHRP: National 
Earthquake Resilience: Research, Implementation and Outreach. One 
recommendation of the NRC committee would be ``to consider that an 
analysis to determine whether coordination among all organizations that 
contribute to NEHRP could be improved would be useful and timely.'' 
http://www.nap.edu/catalog/13092.html

Q3.  There is a great deal of expense that the federal government must 
endure when a national disaster such as an earthquake occurs. Can you 
discuss the costs and benefits of hazard mitigation spending?

A3. Federal Emergency Management Agency (FEMA) has researched this 
question in light of their charge to prepare for natural disasters, as 
well as respond to them. Determining the benefit-to-cost of investing 
in mitigation for a natural disaster such as an earthquake is complex, 
yet some excellent work has gone into quantifying the benefits and 
costs. FEMA models have been developed in conjunction with engineers, 
public officials, and economists, and are generally accepted on making 
public decisions for mitigating natural hazards. Analysis of the hazard 
mitigation grants awarded from 1993--2003 indicate that 1.5-to-1 
benefit on average is derived from mitigation of earthquake hazards. An 
important factor with benefit-to-cost analysis of earthquake hazard 
mitigation is that such mitigation is anticipated to reduce the loss of 
life and injury by as much as 62%, much higher than other mitigation 
for other natural hazards, such as floods or wind (http://
bechtel.colorado.edu/porterka/Rose-et-al-2007-NHR-BCA.pdf).

                              Appendix II

                              ----------                              


             Additional Submitted Statements for the Record



    Submitted Statement by Representative Randy Neugebauer, Member, 
Subcommittee on Technology and Innovation, Committee on Science, Space, 
             and Technology, U.S. House of Representatives

    Mr. Chairman, thank you for holding this full Committee 
hearing to examine the United State's level of preparedness for 
earthquakes and how we can continue to reduce the related 
risks. The recent earthquake off the coast of Japan has had 
devastating consequences for the Japanese people, economy, and 
environment, and it is appropriate for us to consider how 
prepared our nation is for a natural disaster of that 
magnitude.
    Thank you.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
